         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       Limited Knowledge of the Universe
       of Regulated Entities Impedes
       EPA’s Ability to Demonstrate
       Changes in Regulatory Compliance

       Report No. 2005-P-00024


       September 19, 2005
Report Contributors:               Erin Barnes-Weaver
                                   Kim Bryant
                                   Manju Gupta
                                   Jeff Hart
                                   Ben Webster




Abbreviations

CAA          Clean Air Act
CWA          Clean Water Act
ECHO         Enforcement and Compliance History Online
EPA          Environmental Protection Agency
FIFRA        Federal Insecticide, Fungicide, and Rodenticide Act
GAO          Government Accountability Office
NPDES        National Pollutant Discharge Elimination System
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of Inspector General
RCRA         Resource Conservation and Recovery Act
SDWA         Safe Drinking Water Act
TSCA         Toxic Substances Control Act
                        U.S. Environmental Protection Agency                                               2005-P-00024

                        Office of Inspector General                                                   September 19, 2005




                        At a Glance 

                                                                              Catalyst for Improving the Environment


Why We Did This Review              Limited Knowledge of the Universe of
                                    Regulated Entities Impedes EPA’s Ability to
To enforce its regulations and
achieve maximum compliance,         Demonstrate Changes in Regulatory Compliance
a regulatory agency must know
its entire regulated universe.       What We Found
We sought to determine how
well the U.S. Environmental         OECA has limited knowledge of the diverse regulated universe for which it
Protection Agency (EPA)             maintains responsibility. OECA has not updated its universe table since
Office of Enforcement and           generating it in 2001, even though some universe figures for reviewed program
Compliance Assurance
                                    areas have changed substantially. EPA has used the 2001 table as a source for
(OECA) knows the
composition and size of its         describing the size of its regulated universe in public documents. Various data
regulated universe, as well as      quality issues impact OECA's ability to adequately identify the size of its
how OECA determines and             regulated universe and associated compliance information. OECA concentrates
reports compliance levels           most of its regulatory activities on large entities and knows little about the
across the regulated universe.      identities or cumulative impact of small entities. OECA cannot effectively use
                                    universe figures to assist with its regulatory activities. OECA does not develop
Background                          programmatic compliance information, adequately report on the size of the
                                    universe for which it maintains responsibility, or rely on universe figures to assist
OECA compiled its regulated         with planning.
universe table to provide
consistent numbers when             OECA’s limited universe knowledge prevents it from determining overall
presenting compliance               compliance levels in five of the six regulatory program areas we reviewed. This
information to Congress, the        hinders OECA’s ability to generate valid programmatic compliance information
public, and other stakeholders.     and effectively determine program success. In addition, OECA lacks adequate
The information also aids EPA       transparency in publicly reporting some currently available compliance
in making management                information.
decisions about compliance and
enforcement resource                 What We Recommend
allocations. In the universe
table issued in September 2001,     We recommend that OECA biannually update publicly released universe figures,
OECA reported an inventory of       and produce complete, reasonably accurate, and current universe data. Further,
approximately 41.1 million          OECA should better describe its enforcement and compliance role, develop an
regulated entities.                 objective to obtain better reporting from States, and request EPA program offices
                                    to analyze and report on the cumulative impact of violations from small entities.
For further information, contact    Also, we recommend that OECA develop and publish information that
our Office of Congressional and     demonstrates changes in compliance levels, and better share existing compliance
Public Liaison at (202) 566-2391.
                                    data and analyses that will provide external stakeholders with an improved
To view the full report,            understanding of programmatic compliance levels. EPA agreed with some of our
click on the following link:        recommendations, but not those related to biannually updating universe figures,
                                    developing an objective to obtain better reporting from States, or for developing
www.epa.gov/oig/reports/2005/       programmatic compliance information.
20050919-2005-P-00024.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                       OFFICE OF 

                                                                                  INSPECTOR GENERAL





                                       September 19, 2005

MEMORANDUM

SUBJECT:              Limited Knowledge of the Universe of Regulated Entities Impedes
                      EPA’s Ability to Demonstrate Changes in Regulatory Compliance
                      Report No. 2005-P-00024

FROM:                 Jeffrey K. Harris /s/
                      Director for Program Evaluation, Cross-Media Issues

TO:                   Granta Y. Nakayama
                      Assistant Administrator
                      Office of Enforcement and Compliance Assurance


This is our final report on the subject evaluation conducted by the Office of Inspector General
(OIG) of the U.S. Environmental Protection Agency (EPA). This evaluation report contains our
findings that describe the problems we have identified and corrective actions we recommend.
This evaluation report represents the opinion of the OIG and the findings contained in this report
do not necessarily represent the final EPA position. EPA managers will make final
determinations on matters in this report in accordance with established procedures.

We met with Office of Enforcement and Compliance Assurance managers on June 13, 2005, to
discuss our preliminary findings, and provided our draft report on June 30, 2005. EPA did not
concur with all of our recommendations. EPA provided its official written comments in two
documents. We have included EPA’s summary memorandum response in its entirety as
Appendix D. EPA’s second document – the Agency’s response, including detailed comments on
our recommendations – is available on OIG’s Web site, with the report. We are also including
lists of publicly available compliance and enforcement measures, provided to us in EPA’s
response, in Appendix F.
Action Required

EPA Manual 2750 requires you as the action official to provide this office with a written
response to this report within 90 calendar days of the final report date. Your response should
address all recommendations and must include your concurrence or nonconcurrence with all
recommendations. For corrective actions planned but not completed by the response date, please
describe the actions that are ongoing and provide a timetable for completion. If you do not
concur with a recommendation, please provide alternative actions addressing the findings
reported. For your convenience, this report will be available at http://www.epa.gov/oig/.


Attachment


cc: 	   Phyllis Harris, Principal Deputy Assistant Administrator, OECA
        Michael M. Stahl, Director, Office of Compliance, OECA
        Walker B. Smith, Director, Office of Civil Enforcement, OECA
        Greg Marion, Audit Followup Coordinator, OECA
                                   Table of Contents 

At a Glance


Chapters
  1	   Introduction ...........................................................................................................      1

               Purpose ..........................................................................................................    1
               Background ....................................................................................................       1
               Scope and Methodology ................................................................................                3


  2	   OECA Has Limited Knowledge of the Regulated Universe ...............................                                          6

               Universe Table Not Updated Since 2001 Despite Significant Changes .........                                           6

               Data Quality Problems Affect OECA’s 2001 Universe Figures ......................                                      7

               OECA Could More Clearly Describe Its Role .................................................                          10 

               OECA Does Not Focus Its Compliance Monitoring and Enforcement 

                     Activities on a Greater Part of the Regulated Universe ........................                                11 

               OECA Does Not Know the Cumulative Impact of Small Entities....................                                       14 

               Recommendations .........................................................................................            15
               Agency Comments and OIG Evaluation.........................................................                          15 


  3	   OECA Cannot Determine Changes in Compliance for Five of Six 

       Sample Program Areas.........................................................................................                16

               OECA Cannot Generate Programmatic Compliance Information
                    for Five of Six Program Areas ..............................................................                    16 

               OECA Is Not Sufficiently Transparent with Available Compliance Data.........                                         19 

               Recommendations .........................................................................................            20
               Agency Comments and OIG Evaluation.........................................................                          20 



Appendices
  A    OECA’s Regulatory Universe Identification Table – Executive Summary .......                                                  22     

  B    Environmental Statute Information and Program-Specific 

       Facility Size Classifications .................................................................................              26     

  C    Details on Scope and Methodology.....................................................................                        28     

  D    Agency Response Memorandum to Draft Report ..............................................                                    32

  E    Agency Comments to OIG Recommendations and OIG Evaluation ................                                                   36

  F    Publicly Available Compliance and Enforcement Measures ............................                                          43 

  G    Distribution ............................................................................................................    48

                                 Chapter 1
                                 Introduction
Purpose
          To enforce its regulations and achieve maximum compliance, a regulatory agency
          must know its entire regulated community. This knowledge enables an agency to
          make more informed management decisions about compliance and enforcement
          resource allocations, and provides Congress and the public with data on whether
          compliance is increasing. Further, if entities realize they are unknown to a
          regulatory agency, they may be less likely to comply with environmental
          regulations, and enforcement actions by the U.S. Environmental Protection
          Agency (EPA) may be unlikely to occur.

          The EPA is responsible for implementing a large number of environmental
          regulations over a diverse universe of regulated entities of differing size, nature of
          operations, and complexity. To evaluate the effectiveness of EPA’s enforcement
          and compliance efforts, we plan to evaluate several interrelated issues. This
          report addresses the nature and composition of the regulated universe, and
          answers the following questions:

          •	 How well does EPA’s Office of Enforcement and Compliance Assurance
             (OECA) know the composition and size of its regulated universe?

          •	 How does OECA determine and report levels of compliance in the regulated
             universe?

          In subsequent reports, we plan to address how to best measure compliance status,
          determine EPA’s tools and strategies for improving compliance, and consider the
          changes that occur as a result of those tools and activities.

Background
          Importance of Knowing the Regulated Universe

          Knowledge of the size and character of the regulated community is fundamental
          to a regulatory agency’s effectiveness. Identifying the regulated universe enables
          regulatory agencies to develop effective enforcement and compliance strategies,
          as well as establish deterrence among the regulated community. Current and
          complete universe information facilitates evaluation, highlights the scope of
          responsibilities, increases transparency, and improves the ability to manage
          enforcement and compliance efforts.



                                            1

              We developed the following list of the benefits of a known universe based on
              interviews with OECA staff and reviews of environmental policy literature
              (see Table 1-1):

                  Table 1-1: Benefits of Knowing the Full Regulated Universe

Evaluation	       Current and complete universe figures can allow for improved internal and external
                  analysis and reporting of the impact of a regulatory agency’s activities.

Scope	            Universe data discloses the size and nature of a regulatory agency’s
                  responsibilities. Knowledge of the universe provides the agency with a definitive
                  baseline on the number, size, location and character of entities subject to particular
                  regulations and statutes. This is especially important as entities shut down, start up,
                  move, or change their operations.

Transparency	     EPA has a longstanding commitment to transparency – to publicly account for its
                  decisions and explain why it took or did not take certain actions. During his
                  confirmation hearing, current EPA Administrator Stephen Johnson listed one of his
                  guiding principles as pursuing “as open and transparent a decision making process
                  as possible.” Increased information disclosure allows external stakeholders to
                  better understand a regulatory agency’s activities. Since the passage of the
                  Emergency Planning and Community Right-to-Know Act in 1986, EPA has used
                  information disclosure as a means to improve environmental performance. OECA
                  documents note how continued and increased release of information keeps with the
                  Administrator’s emphasis on greater transparency. Public disclosure also holds the
                  Agency accountable for all lessons learned, including both successes and failures.

Management	       Current and complete universe information can assist with the following
                  management activities:
                  •	 Targeting: Updated universe data provides information on how many entities
                     can and will be affected by regulatory agencies’ enforcement and compliance
                     activities, and thus enables better targeting strategies.
                  •	 Retrospective Analyses: Comprehensive regulated universe information can
                     assist a regulatory agency in conducting retrospective analyses on the success
                     of their enforcement and compliance activities in certain program areas.
                  •	 Rule-making: OECA staff said EPA has used universe data in regulatory
                     decisions and analyses.
                  •	 Priority-Setting: Knowledge of the regulated universe enables regulatory
                     agencies to more easily establish defensible priorities in focusing resources.



              OECA’s 2001 Universe Table

              In September 2001, OECA compiled figures detailing the size of the regulated
              universe for which it was responsible. OECA produced its 2001 Regulatory
              Universe Identification Table (see Appendix A) after receiving criticism for not
              having an adequate knowledge of its regulated universe. According to senior



                                                 2

                OECA managers, OECA also generated the universe figures to provide a single
                definitive source for internal briefings and external presentations. For example:

                •	 Prior to 2001, OECA staff cited a variety of inconsistent numbers when
                   discussing the regulated universe. During congressional budget hearings,
                   OECA could not provide consistent accounts of its regulated universe.

                •	 In a July 2001 report,1 the Government Accountability Office (GAO) stated
                   OECA could not demonstrate “the universe of entities subject to regulation
                   under federal environmental laws.” GAO also noted OECA could not
                   adequately explain variations in enforcement activity across regions, or how it
                   distributed resources and determined priorities.

                The 2001 Regulatory Universe Identification Table shows that OECA’s universe
                totaled approximately 41.1 million entities. OECA developed the table by using
                Agency databases and consulting 36 sources for the 58 program areas included in
                the table. In developing the table, OECA produced a methodology that could be
                used to generate future universe data. Staff in the Office of Compliance
                coordinated with the Office of Regulatory Enforcement (now the Office of Civil
                Enforcement) and program offices to obtain numbers for universe program areas.
                OECA staff asked relevant program staff to provide program descriptions, a data
                source to generate the universe number, and any data caveats. OECA staff
                emphasized that a source, database, or document had to support the universe
                number used in the table; institutional knowledge or a “gut” feeling were not
                adequate. OECA staff described the methodology as a resource-intensive process.
                Since 2001, EPA has described the number of regulated entities as approximately
                41 million based on OECA’s universe table. For example, EPA cited this figure
                in public documents, such as the EPA Strategic Plan 2003-2008.

Scope and Methodology
                We conducted our evaluation field work on EPA’s knowledge of its regulated
                universe and compliance status between January and April 2005. We generally
                performed our evaluation in accordance with Government Auditing Standards,
                issued by the Comptroller General of the United States.

                To answer both the universe and compliance objectives, we judgmentally selected
                six sample program areas, as case studies, from OECA’s 2001 Regulatory
                Universe Identification Table. We based this sample on information gathered
                from our preliminary research. An initial analysis of the Regulatory Universe
                Identification Table showed that OECA’s universe consisted of a total of
                approximately 41 million entities. These included a diverse and complex mix of
                entities of varying sizes and types. Small entities made up a much greater part of

1
 GAO-01-812, Human Capital: Implementing an Effective Workforce Strategy Would Help EPA to Achieve Its
Strategic Goals, July 2001.


                                                    3

the universe than major and large entities. A review of OECA’s planning
documents also showed that a handful of programs were selected as national
priorities, and others were described as core programs. While OECA is ultimately
responsible for regulating all 41 million entities, it focuses its regulatory attention
on national priority program areas, while the States are primarily responsible for
core programs. To conduct a balanced evaluation of OECA’s knowledge of the
regulated universe, it was important to select a sample that reflected the mix of
program areas for which OECA is both ultimately responsible and it had
represented as falling under its regulatory authority in its Regulatory Universe
Identification Table.

We selected the sample program areas using the following criteria:

•	 Program areas from across major environmental statutes;
•	 Program areas including a mix of large and small entities because OECA
   included both groups in its overall universe count; and
•	 A mix of national priority and core programs.

Applying these criteria, we selected the sample program areas listed in Table 1-2.
We included details on the applicable statutes, program areas, and distinctions
between the different sizes of entities in Appendix B.

           Table 1-2: Environmental Statutes and Sample Program Areas

              Statute                                     Program Area
 Clean Air Act (CAA)                    Minor Stationary Sources and Synthetic Minors *
 Clean Water Act (CWA)                  Stormwater Permits
                                        (National Pollutant Discharge Elimination System)
 Federal Insecticide, Fungicide,        Total Number of Farms and Business Sites
 and Rodenticide Act (FIFRA)            Regulated under Pesticides Programs
 Toxic Substances Control Act           Core TSCA – Other Manufacturers, Processors,
 (TSCA)                                 Distributors, Users, and Exporters
 Safe Drinking Water Act                Public Water Systems: Community Systems
 (SDWA)
 Resource Conservation and              Small Quantity Generator Facilities
 Recovery Act (RCRA)
 * Synthetic minors are stationary sources that have the capacity to emit at or above the
 major source threshold but are considered minor sources because they place physical
 or operational limitations on their capacity to emit pollution.



We did not quantitatively extrapolate the results from our judgmental sample
across OECA’s entire regulated universe. Similarly, we did not use our
judgmental sample to generalize to OECA’s entire regulated universe. During the
course of our review, however, we did find conditions that were systemic. We
interviewed OECA managers to determine whether a condition was limited to the
program area under review, or whether it was an OECA-wide policy or practice.


                                    4
When OECA managers confirmed that it was an OECA-wide policy or practice,
we presented it as a finding with an appropriate recommendation. These findings
and recommendations may therefore be broader than the program areas under
review within the sample. However, they are accompanied by appropriate
explanatory caveats. Both Chapters 2 and 3 include such findings and
recommendations.

We did not independently verify the accuracy or reliability of data provided by
OECA staff for our program area sample. We conducted limited work regarding
fraud, and did not test internal controls. We followed the guidance and
definitions provided in the GAO guidance document, Assessing the Reliability of
Computer-Processed Data, to answer our evaluation objectives. We reviewed
existing information on OECA’s data problems, limitations, and corrective
actions, and conducted interviews with OECA staff knowledgeable about
enforcement and compliance data systems. We designed our scope to examine
universe data at a national level and, as such, did not trace documents or data
from original points of regional, State, or local data entry to final database output.

See Appendix C for more details on our scope and methodology.




                                  5

                                Chapter 2
           OECA Has Limited Knowledge of the
                 Regulated Universe
          OECA has limited knowledge of the regulated universe for which it maintains
          responsibility. OECA has not updated its Regulatory Universe Identification
          Table since generating that table in 2001, even though some universe figures have
          changed substantially. In addition, various data quality issues impact OECA's
          ability to adequately determine reliable and current information on the size and
          composition of its regulated universe. OECA concentrates most of its compliance
          monitoring and enforcement activities on large entities, and knows little about the
          identities or cumulative pollution effects of small entities. Therefore, OECA
          cannot effectively use universe figures to assist with its regulatory activities. It
          cannot develop programmatic compliance information, adequately report on the
          size of the universe for which it maintains responsibility, or rely on these numbers
          to assist with management and regulatory planning. Further, in publications,
          OECA could more clearly qualify its role in relation to the roles played by States
          and others.

Universe Table Not Updated Since 2001 Despite Significant Changes
          While the number of entities in our universe sample has changed, OECA has not
          updated the universe table as a whole. To determine whether any significant
          changes in the size of the sampled universe have occurred, we requested that
          OECA staff provide us with the current number of regulated entities for our
          sampled program areas. Between 2001 and 2005, the universe for these program
          areas increased by 35 percent. Although we had limited our review of the size
          increase to only the six sampled areas, this indicates that the numbers of entities
          changed over time and OECA needs to update the numbers. Table 2-1 illustrates,
          for example, how some areas changed very little, while others changed
          significantly:




                                           6

            Table 2-1: Change in Sample Universe Figures by Program Area, 2001 and 2005
                                                                                    Percent
           Program Area                                   2001          2005        Change
           CAA – Minor Stationary Sources                96,866        101,370      +5%
           CAA – Synthetic Minor Sources                 17,248         20,795      + 21 %
           CWA – Stormwater Permits                     380,000       >550,000      + 45 %
           FIFRA – Farms and Businesses, etc.         2,246,512       2,168,241      -4%
           TSCA – Other Manufacturers, etc.           3,758,176       6,063,948     + 61 %
           SDWA – Public Water Systems:                  54,101          52,838      -2%
           Community Systems
           RCRA – Small Quantity Generator              202,965        178,771      - 12 %
           Facilities
           Total                                      6,755,868       9,135,963     + 35 %

          Following the release of the Regulatory Universe Identification Table in
          September 2001, OECA planned to begin updating the table in December 2001.
          OECA intended future iterations to provide regional breakouts of the regulated
          universe in addition to national figures. However, OECA has not produced new
          universe figures since it released the original table in 2001, and continues to cite
          the number of entities from the 2001 table. OECA staff attributed this to a lack of
          resources. However, they indicated they are considering updating information on
          certain areas selected as national priority programs. OECA selected a handful of
          programs as national priorities based on patterns of noncompliance or the threat of
          significant environmental risk. In a December 8, 2004, response to our questions,
          senior managers from OECA’s Office of Compliance indicated they did not
          believe the universe numbers had changed dramatically. Some OECA staff,
          however, said it is difficult to provide precise universe figures for some program
          areas because they fluctuate frequently.

          Regulatory agencies should attempt to maintain a reasonably accurate count of the
          regulated entities, by program area, under their purview. Knowledge of the
          regulated universe allows an environmental regulatory body like OECA to better
          understand the patterns of noncompliance in a sector or population, assess the
          production process and practices used by entities, and determine the state of
          environmental management sophistication in the sector or population. Without
          reliable universe information, OECA lacks both a definitive baseline on the
          number, size, and character of entities subject to regulation, as well as the
          information necessary to provide a denominator for compliance rates.

Data Quality Problems Affect OECA’s 2001 Universe Figures
          The data that constitute OECA’s numbers in the universe table are subject to
          several data quality issues. With the exception of SDWA, we found universe data
          for the sampled program areas was not reliable. The EPA Office of Inspector


                                           7

General (OIG), GAO, and the National Academy of Public Administration have
previously reported data quality problems. We based our conclusions using
definitions from GAO’s Assessing the Reliability of Computer-Processed Data,
which defines reliable data as being both complete and accurate, and provides the
following definitions:

•	 Complete: The data contain all of the data elements and records needed for
   the engagement.
•	 Accurate: The data reflect the data entered at the source or, if available, in the
   source documents.

Table 2-2 shows where we determined that a number of program areas do not
have reliable or current data. Some program areas rely on estimated or
extrapolated data, and the estimates were not based on supportable information.
According to OECA, its inability to ensure desired data quality occurred due to
data gaps. Data gaps occur in cases where regulations do not require States to
report data to OECA. OECA managers said that obtaining additional reporting
from States would require approvals by the Office of Management and Budget, or
additional regulatory actions.

                 Table 2-2: Data Quality of Sample Program Areas
 Program Area                                     Reliable Data *     Current Data
 CAA – Minor Stationary Sources                         No                No
 CAA – Synthetic Minor Sources                          No                No
 CWA – Stormwater Permits                               No             Unknown
 FIFRA – Farms and Businesses, etc.                     No             Unknown
 Core TSCA – Other Manufacturers, etc.                  No                No
 SDWA – Public Water Systems:                          Yes                Yes
 Community Systems
 RCRA – Small Quantity Generator                        No              Unknown
 Facilities
  * Reliable data must be both complete and accurate.

Results from Table 2-2 are explained below:

•	 CAA Minor Stationary Sources: CAA minor source data are incomplete
   because States are not required to report CAA minor stationary source data.
   In addition, State and local agencies do not evaluate all minor source entities
   regularly, so the data are not kept current.

•	 CAA Synthetic Minor Sources: According to OECA staff, the Agency does
   not have a complete, accurate, or current universe of CAA synthetic minor
   sources even though State and local regulatory agencies are required to report
   the data to EPA. The staff also noted that State and local agencies do not
   evaluate all synthetic minor sources regularly, so the data are not kept current.



                                  8

•	 CWA Stormwater: EPA’s Office of Water staff said they estimated the
   figure used in the 2001 table, but they could not provide a supportable basis
   for the estimate. They suggested the number might have come from
   extrapolated projections from the seven States for which EPA had not
   delegated the CWA stormwater program. It, therefore, does not necessarily
   represent a reliable estimate for the true national universe of entities subject to
   stormwater regulations.

•	 FIFRA: Approximately 99 percent of the FIFRA universe of 2,246,512
   entities is estimated. It includes three subgroups: pesticide production
   establishments (12,442), commercial pest control firms (40,000), and farms
   (2,194,070). OECA has limited knowledge of the largest subgroup: farms.
   FIFRA provides primacy to States, and OECA has limited involvement with
   the FIFRA universe. The statute requires commercial establishments to
   register pesticides, and this component of the universe includes only those
   who register. The number of non-registrants is not known.

•	 TSCA: The numbers for the TSCA universe are not reliable for the sample
   program area. The sample included a large group (3,758,176) described as
   “other manufacturers, processors, users, distributors, and exporters of
   chemical substances in the U.S....” OECA estimated this number from the
   Dun and Bradstreet sector data of entities, which is composed of
   manufacturing, wholesale, and retail trades. However, according to OECA
   staff, its compliance and enforcement activities only focus on a small subset
   of the total Core TSCA universe – the 13,513 chemical manufacturers. This
   number for chemical manufacturers was generated from the 1997 U.S.
   Economic Census. This 1997 figure was used in the 2001 universe table, and
   was also provided as the current universe number. Therefore, both the 2001
   and 2005 figures are outdated.

•	 SDWA: We take no exception to the published universe figures for SDWA.
   The sample for SDWA included Public Water Systems: Community Systems.
   This universe is well defined. We did not independently test the SDWA data.

•	 RCRA: The RCRA small quantity generator facility universe number is
   incomplete. The designation of large quantity versus small quantity depends
   on the amount of waste generated and stored. According to OECA staff, these
   facilities are not required to notify EPA if their status changes from a small to
   large facility. The facilities can easily change from small to large generators,
   and the staff explained how it is difficult for OECA to generate a reliable
   universe figure because of this flux.




                                  9

                The EPA OIG, GAO, and the National Academy of Public Administration have
                previously reported problems with OECA’s data quality.2 High quality data in
                EPA’s national databases are essential for credible measures, reports, and
                analyses. In response to weaknesses identified by external sources, OECA issued
                guidance in March 2002 on improving data quality, titled Final Enforcement and
                Compliance Data Quality Strategy, which states:

                    EPA managers and members of Congress rely on this data to hold EPA
                    programs accountable and to inform their decision-making… Accurate
                    data, in an accessible and usable form, is essential to support Agency
                    planning and targeting… Documenting performance [for the Government
                    Performance and Results Act] requires timely, high quality data… Proof
                    of high quality gives rise to confidence among the public, industry, and
                    other users of enforcement and compliance data.

OECA Could More Clearly Describe Its Role
                Of the 41.1 million entities listed in the 2001 universe table, EPA maintains only
                1.6 million facility or entity records in its compliance and enforcement databases.
                This represents less than 4 percent of the total facilities for which OECA is
                responsible. Many of those entities represent those for which EPA has direct
                regulatory authority. For most entities, EPA has authorized States to implement
                environmental programs and conduct enforcement activities in accordance with
                environmental laws. Among the program areas we evaluated, OECA is the primary
                regulatory authority only for TSCA. For the other program areas, the States are the
                primary regulators, with OECA providing an oversight role, although in certain
                instances EPA may become involved in compliance activities and enforcement
                actions.

                Some documents in which EPA includes the 41.1 million figure do not clearly
                indicate OECA’s shared role in conducting its regulatory responsibility. These
                include the Agency’s 2005-2007 National Program Guidance, and EPA responses
                to prior EPA OIG and GAO reports. EPA’s 2003-2008 Strategic Plan and
                OECA’s response to the 2006 Office of Management and Budget Program
                Assessment Rating Tool do explain that EPA works cooperatively with States, as
                well as local and tribal agencies, to secure and maintain compliance. OECA staff
                stated they never intended to imply that OECA had direct responsibility for
                41.1 million entities. However, without appropriate explanatory caveats, external
                stakeholders might misinterpret the figure to mean that OECA actually ensures
                environmental protection by directly regulating all 41.1 million entities.



2
 These documents include OIG’s EPA’s Key Management Challenges (2003), GAO’s Human Capital:
Implementing an Effective Workforce Strategy Would Help EPA to Achieve Its Strategic Goals (2001), and the
National Academy of Public Administration’s Evaluating Environmental Progress: How EPA and the States Can
Improve the Quality of Enforcement and Compliance Information (2001).


                                                     10

OECA Does Not Focus Its Compliance Monitoring and Enforcement
Activities on a Greater Part of the Regulated Universe
         According to OECA staff, EPA’s enforcement and compliance monitoring
         activities focus on major and large entities or sources, which represent only a
         small fraction of the total universe shown in OECA’s universe table. OECA has
         mostly focused on larger and major entities, and has not conducted or obtained
         analyses showing the cumulative impact of the vast number of entities that emit
         pollution below the threshold of major or larger entities. EPA has focused on
         major and larger entities because any one of the larger entities can have a greater
         individual impact than any of the smaller entities by itself. However, given the
         much greater number of small entities in the sample, and the potential cumulative
         impact from this vast part of the regulated universe, we find it is important for
         OECA to know the cumulative environmental impact of entities that fall below
         the major or large threshold. Information on small entities could help OECA
         better prioritize where to focus resources and facilitate effective management.

         The following charts illustrate the proportion of large and small entities in the
         CAA, CWA, RCRA, and SDWA program areas (FIFRA and TSCA do not
         formally distinguish between large and small entities). We generated each chart
         using data from OECA’s 2001 Regulatory Universe Identification Table. The
         charts demonstrate that smaller entities comprise a much larger percentage of
         OECA’s total universe than large entities. We include general statutory
         information and program-specific facility size classifications in Appendix B.

         CAA: OECA concentrates its CAA resources on major stationary sources and
         large polluters. Using 2001 universe figures, major stationary sources, minor
         sources, and synthetic minor sources total 137,982 entities. Major stationary
         sources represent only 4 percent of OECA's CAA regulated universe when
         including other CAA entities such as mobile sources.

                   Chart 2-1: CAA Regulated Universe - 2001

                                                Large Facilities (Major
                                                Stationary Sources)
                            4%
                                 14%
                                                Small Facilities (Minor
                                                Stationary Sources)

                                   17%
                                                Small Facilities
                  65%                           (Synthetic Minor
                                                Stationary Sources)
                                                Other Facilities
                                                (includes mobile
                                                sources)




                                          11

CWA Stormwater Permits: The CWA stormwater program is a subset of the
National Pollutant Discharge Elimination System (NPDES) program. The
stormwater permits program was instituted in two phases. The first phase
required permits for large municipal waste water systems, industrial plants, and
large commercial construction sites. Phase two permit requirements cover a much
greater number of smaller municipal waste water systems and smaller
construction sites. In a majority of cases, States issue general permits, and only a
small percent of these permits are in OECA’s databases. Analyses have shown
that stormwater overflow is a major source of water pollution. The universe of
stormwater sources is not well known even though stormwater has been a priority
area since fiscal year 2001. Stormwater continues as a national enforcement
priority program in fiscal year 2005, and OECA has developed a national strategy.
The strategy puts emphasis on providing compliance assistance and developing an
inventory of watersheds. OECA plans to devote more resources to focus on these
sources.


        Chart 2-2: CWA-NPDES Regulated Universe - 2001

                       1%
                              16%
                                              Large Facilities (Major
                                              Permitted Facilities)


                                              Small Facilities (Minor
                                              Permitted Facilities)


                                              Other Facilities (includes
                                              wet weather facilities
              83%                             (stormwater permits))




RCRA: OECA concentrates most of its regulatory resources on large quantity
generator facilities, although they comprise less than 10 percent of the combined
total of RCRA facilities, according to OECA’s 2001 universe figures. The
percentage of large quantity generator facilities in the total RCRA universe drops
to 4 percent when including other facilities such as conditionally-exempt small
quantity generators.




                                 12

                Chart 2-3: RCRA Regulated Universe - 2001


                           4%                        Large Facilities (Large
                                                     Quantity Generators)



                                                     Small Facilities (Small
          42%                           35%          Quantity Generators)



                                                     Small Facilities
                                                     (Conditionally-Exempt
                                                     Small Quantity
                                                     Generators)

                           19%                       Other Facilities




SDWA: While OECA is familiar with the SDWA public water system universe,
OECA does not expend its regulatory resources on all types of drinking water
entities. The majority of the U.S. population gets its drinking water from a small
number of public community water systems. EPA’s annual report to Congress on
national public water system compliance includes information on large public
community water systems. The States, not OECA, are responsible for most
compliance activities across drinking water systems. SDWA was a national
priority enforcement area for OECA until 2005.


                  Chart 2-4: SDWA Regulated Universe - 2001


                                 5%
                                        11%             Large Facilities (Public Water
                                                        Systems - Community Water
                                                        Systems)

                                                        Small Facilities (Non-
                                                        Transient and Transient
                                                        Community Water Systems)

                                                        Other Facilities (includes
                                                        Class I-V Wells)
                     84%




TSCA: While Core TSCA does not formally distinguish between large and small
entities, OECA concentrates its compliance and enforcement resources on 13,513



                                  13

          chemical manufacturing entities out of 3,771,689 entities in the universe table.
          This is 0.4 percent of the stated Core TSCA universe.

          OECA staff mentioned that they use compliance assistance to help smaller entities
          become compliant. They also provided various reasons why they generally focus
          compliance monitoring and enforcement resources on large entities. OECA
          officials said they should concentrate resources on large entities because:

          •	 Large entities are often priority enforcement and compliance monitoring
             areas;
          •	 States address small entities through core program implementation and OECA
             specifies to States how frequently they should inspect small entities;
          •	 The large size of program area universes, and an accompanying lack of
             resources; and
          •	 The difficulty in identifying and analyzing RCRA small quantity generator
             facilities because of their transient nature.

OECA Does Not Know the Cumulative Impact of Small Entities
          In most program areas in our sample, OECA does not know the cumulative
          effects of pollution from small entities. OECA did not provide information on
          any analyses that study the cumulative environmental or health effects of small
          entities. Of our sample program areas, OECA focuses compliance and
          enforcement resources on small and medium entities in only the CWA stormwater
          and Core TSCA program areas. EPA’s concern that stormwater runoff
          significantly impairs water quality contributed to designating the stormwater
          program as a national enforcement priority in prior years, and continuing it as a
          priority in fiscal 2005. While Core TSCA regulations do not formally distinguish
          between large and small entities, OECA TSCA staff recently focused on smaller
          chemical manufacturers because the staff believed they are less likely to
          understand their Core TSCA obligations than large chemical manufacturers.

          While no formal impact assessments have been undertaken, some States and EPA
          regions have argued that RCRA small quantity generator facility inspections
          represent some of the most environmentally significant activities that regions and
          States conduct. RCRA enforcement staff said they are collecting small quantity
          generator facility information, and may consider shifting OECA’s RCRA
          resources in coming years.

          We acknowledge that analyzing the cumulative environmental effect of small
          entities is not OECA’s direct responsibility. However, given that OECA
          crosscuts all of the Agency’s program offices, we believe OECA should request
          that program offices conduct these studies if OECA does not do the analyses
          themselves. The knowledge generated by these analyses would allow OECA to
          establish more defensible priorities of its own activities, as well as better organize
          and coordinate the efforts of its State partners.


                                            14

Recommendations

         We recommend that the Assistant Administrator for Enforcement and Compliance
         Assurance:

         2-1 	   Biannually update publicly released universe figures by tracking and
                 recording the number of entities over which OECA has oversight and
                 primary regulatory responsibility.

         2-2 	   When producing its biannual universe update, use reliable data to generate
                 complete and current universe numbers that meet national data quality
                 standards similar to those outlined in OECA’s Final Enforcement and
                 Compliance Data Quality Strategy.

         2-3 	   Describe OECA’s enforcement and compliance role in relation to States
                 and other partners when the Agency publicly releases universe figures.

         2-4 	   Develop an objective of having the most up-to-date and reliable data on all
                 entities that fall under its regulatory responsibility. OECA should adopt
                 the goals of requiring States to track, record, and report data for entities
                 over which States have regulatory responsibility. To achieve this goal,
                 OECA should develop a multi-State, multi-program pilot program of
                 collecting data that States track, record, verify, and report.

         2-5 	   Request that EPA program offices analyze and report to OECA the
                 cumulative impact of violations by regulated entities that pollute below the
                 thresholds of major or large entities. OECA should use any cumulative
                 impact analyses conducted by program offices to support OECA’s
                 management decisions.

Agency Comments and OIG Evaluation

         Even though OECA agreed with the premise that knowing the size and character
         of the regulated universe is a fundamental activity for a regulatory agency, OECA
         has not agreed to update its knowledge of the universe of entities for which it
         maintains regulatory responsibility. Specifically, OECA agreed with
         Recommendations 2-2 and 2-3, but disagreed with Recommendations 2-1, 2-4,
         and 2-5. Appendix D includes the Agency memorandum that contains summary
         comments. Appendix E includes the Agency’s comments on specific
         recommendations and other general comments, and our evaluation of those
         comments. The Agency’s detailed comments are available on the EPA OIG Web
         site. We have made some appropriate changes to the report in response to the
         Agency’s comments.




                                          15

                               Chapter 3
 OECA Cannot Determine Changes in Compliance for
        Five of Six Sample Program Areas
         OECA could not determine or report on the levels of compliance with
         environmental regulations for five of our six sample regulatory areas. OECA’s
         National Program Guidance for 2005-2007 states that “OECA’s national
         enforcement and compliance assurance program is responsible for maximizing
         compliance.” OECA conducts several activities to determine and report
         compliance. However, in five of the six sample program areas, OECA could not
         determine and report overall programmatic compliance levels because it lacks
         current and complete knowledge of the regulated universe. Data quality problems
         further hindered OECA’s ability to generate valid programmatic compliance
         information. The lack of programmatic compliance information impedes OECA’s
         ability to determine which programs are working and how effective they are in
         achieving goals. As a result, OECA cannot demonstrate changes in overall
         compliance in the regulated universe. OECA generates region- and State-specific
         noncompliance statistics and data for internal reports, but lacks sufficient
         transparency by not publicly sharing some of this compliance-related information
         with external stakeholders.

OECA Cannot Generate Programmatic Compliance Information for
Five of Six Program Areas

         Reliable compliance information is essential for a regulatory agency to plan, set
         goals, evaluate the results of its strategy, and demonstrate results to external
         stakeholders. Statutes and regulations provide the basic framework of regulatory
         compliance, along with various policies.

         OECA cannot generate programmatic compliance information for five of the
         program areas in our sample due to its limited knowledge of the full universe of
         regulated entities. In these five sample areas, OECA maintained only facility-
         specific noncompliance information for a limited part of that universe: the larger
         or major entities in the program. OECA cannot determine the compliance of most
         minor and synthetic minor stationary air sources, small quantity waste generator
         facilities, and stormwater dischargers because OECA does not currently require
         States to report data on minor and small sources. As discussed in Chapter 2,
         minor and smaller entities constitute a much greater number of OECA’s total
         regulated universe than large entities.

         Lack of knowledge of the number, location, and levels of compliance of this
         significant portion of the universe leaves a large gap in OECA’s knowledge of
         overall compliance in each program. Within most of our sample, OECA has not


                                         16

been able to quantitatively demonstrate the success of its strategies, nor show an
increase in the percent of entities in compliance, because OECA does not know
the full universe of regulated entities.

In Table 3-1, we summarize whether compliance information for the program area
was available, and provide additional information after the table, based on
discussions with OECA staff, about available programmatic compliance
information. During discussions with OECA managers, we found that the lack of
data was systemic and not limited to only the program areas under review.
Table 3-1 shows by program area whether: OECA could provide programmatic
compliance information, OECA has defined a significant noncompliance or high
priority violator category, and the area is or has been a national priority program
since 2001.

 Table 3-1: Summary of Programmatic Compliance Information for Sample Areas
                                                                              National
                                          Programmatic                        Priority
                                           Compliance          SNC/HPV *      Program
         Sample Program Area               Information         Applicable   2001    2005
 CAA – Minor Stationary Sources                 No                Yes        No     No
 CAA – Synthetic Minor Sources                  No                Yes        No     No
 CWA – Stormwater Permits                       No                No        Yes    Yes
 FIFRA – Farms and Businesses, etc.             No                No         No     No
 Core TSCA – Other Manufacturers,               No                No         No     No
 etc.
 SDWA – Public Water Systems:                   Yes               Yes       Yes     No
 Community Systems
 RCRA – Small Quantity Generator                No                Yes        No     No
 Facilities
 * SNC/HPV: Significant Noncompliance/High Priority Violator

CAA Minor Stationary Sources: OECA did not have information on levels of
compliance for minor sources because it did not require States to report them in
the national Air Facilities Subsystem database or provide associated compliance
and enforcement information.

CAA Synthetic Minor Sources: OECA does not have complete data on the
synthetic minor sources, even though States and local regulatory agencies are
required to report on these entities. OECA staff said they have focused mainly on
major sources because OECA considers them a greater source of air pollution.
In April 2001, EPA issued the Clean Air Act Stationary Source Compliance
Monitoring Strategy, which recommends that State and local agencies focus
compliance monitoring activities on a subset of the synthetic minor universe.
However, OECA staff indicated that they do not have current or complete
knowledge of compliance status of all synthetic minor sources.



                                  17

                CWA: According to OECA staff, there is a high level of noncompliance with
                stormwater regulations. Even though this has been a priority area since 2001,
                OECA cannot provide programmatic or facility-specific compliance information
                because it does not have a good knowledge of this universe. In most cases, States
                issue general permits for stormwater regulations, and EPA does not have detailed
                data on these permits. In fiscal year 2005, OECA again selected the Stormwater
                program area as a national enforcement priority program due to runoff concerns.

                FIFRA: OECA cannot provide overall compliance information for the FIFRA
                program area because it does not have data for the universe of 2,246,512
                regulated entities. OECA staff said that, according to statutes, States have
                primacy in implementing the FIFRA enforcement and compliance program.
                OECA provides grants to States, and States then report the number of inspections
                and violations found. However, OECA cannot demonstrate levels of
                programmatic compliance based on the results of States’ targeted inspections.

                TSCA: OECA cannot determine overall compliance for the Core TSCA universe
                because OECA can only make compliance determinations by conducting
                inspections. According to OECA staff, OECA has not inspected even a small
                portion of the 3,758,176 Core TSCA regulated entities. Core TSCA enforcement
                staff uses the Enforcement Response Policy to assess the gravity of violations and
                determine appropriate enforcement actions on a case-by-case basis. After
                concentrating compliance monitoring on larger manufacturing entities for many
                years, OECA staff indicated that they would pay more attention to providing
                compliance assistance to smaller entities. However, OECA cannot presently
                provide compliance information on the Core TSCA universe.

                SDWA: EPA reports on the status and progress of the SDWA program to
                Congress annually, and SDWA has been a national enforcement and compliance
                priority for many years. OECA generated programmatic compliance rates to
                report changes in compliance in the SDWA Public Water Systems – Community
                Systems universe. However, OECA generated the rates with incomplete
                violations data, resulting in underreporting. States conduct the majority of
                SDWA inspections and enter information and violations in the Safe Drinking
                Water Information System database. Both EPA OIG and OECA audits3 of that
                database have shown that States do not provide consistently high quality
                violations data and do not enter many violations in the database.

                RCRA: OECA does not know the universe or compliance levels for the small
                quantity generator universe and therefore cannot provide information to show
                levels of RCRA compliance. As discussed in Chapter 2, RCRA facilities can
                change generator size status from small to large. However, if they do not notify
                EPA, the status change will not be discovered until the facility is inspected.

3
 EPA OIG Report No. 2004-P-0008, EPA Claims to Meet Drinking Water Goals Despite Persistent Data Quality
Shortcomings, March 5, 2004; and OECA 2002 National Public Water System Compliance Report, Providing Safe
Drinking Water in America, December 2004.


                                                    18

          According to OECA staff, not all RCRA facilities are inspected annually, and a
          significant percentage of small quantity generator facilities have never been
          inspected.

OECA Is Not Sufficiently Transparent with Available Compliance Data
          While OECA generates many types of compliance reports for management use
          from the data provided by States and EPA regions, OECA does not release many
          of these reports to external stakeholders. The internal reports include monthly
          management reports, watch lists, and performance analyses. From the
          information provided by States and regions in Agency databases, OECA develops
          data, statistics, rates, and analyses for internal OECA and regional management.
          OECA organizes analyses and data by region and State. Some of the rates that
          measure noncompliance include significant noncompliance rates, recidivism rates,
          time to attain compliance, and “hit rates” that show the number of significant
          noncompliance violations found from inspections.

          OECA provides performance results annually to external audiences in measures
          such as pounds of pollutants reduced, dollars of fines and penalties, number of
          inspections, and compliance assistance provided. The external reports and
          publicly reported data do not demonstrate results in terms of levels of compliance
          or noncompliance across regulated program universes. OECA provides facility-
          specific compliance information on approximately 800,000 facilities in its public
          Enforcement and Compliance History Online (ECHO) database, but the system
          does not provide programmatic compliance information.

          Transparent regulatory information allows Congress and the public the
          opportunity to review and analyze compliance data. Also, State compliance data
          can show regional and geographical differences in environmental problems,
          approaches, and solutions. EPA has a longstanding commitment to transparency,
          which can improve data quality because States might more timely and carefully
          enter enforcement and compliance data that is open to public scrutiny.

          Through fiscal 2002, OECA publicly released most of the rates and data in its
          Measures of Success Reports, but OECA currently releases this information only
          to Agency personnel. According to OECA staff, they do not publicly release
          internal rates and data because:

          •	 People may misunderstand and misrepresent the rates and data derived from
             targeted inspections and compliance monitoring, since the data do not
             represent the noncompliance levels of the whole regulated universe.
          •	 Congress and the public may be unduly alarmed by the high level of
             noncompliance because inspections are targeted based on high risk or
             suspected noncompliant activity.




                                          19

         •	 Experts could create programmatic compliance rates from the facility-specific
            information in the ECHO database; therefore, OECA does not need to
            generate programmatic information.
         •	 States do not want to publish statistics because people may make comparisons
            among States and draw incorrect inferences without the proper context.
         •	 OECA must keep some information confidential for enforcement actions.

         While we agree that some information must be kept confidential for conducting
         enforcement actions, we do not agree with the other reasons. If the data is based
         on targeted inspections, or only represents some States or regions, OECA can
         provide explanatory notes to avoid misrepresentation and prevent Congress and
         the public from misunderstanding what the data represents. Providing significant
         noncompliance rates, with appropriate qualifying explanations, can still
         demonstrate the success of pursuing known violators. The credibility of EPA’s
         decisions can increase when external audiences understand how the Agency came
         to its decisions. Further, even experts cannot generate programmatic compliance
         information from the facility specific compliance information in the ECHO
         database because, according to OECA statements, this database only contains
         compliance data on approximately 800,000 entities, whereas OECA has described
         its regulated universe as approximately 41 million entities.

Recommendations
         We recommend that the Assistant Administrator for Enforcement and Compliance
         Assurance:

         3-1 	   To show the results of its national enforcement and compliance program
                 in maximizing compliance with environmental statutes, develop and
                 publish information that demonstrates changes in compliance levels within
                 the regulated universe, by program areas. Include any appropriate
                 explanations of data quality issues or data caveats.

         3-2 	   Share compliance data and analyses with external stakeholders to provide
                 a better understanding of programmatic compliance levels; include
                 explanatory notes as needed to ensure proper representation and
                 understanding.

Agency Comments and OIG Evaluation
         OECA did not concur with Recommendation 3-1, and as an alternative proposed
         that it would share with the public any statistically valid noncompliance rates
         developed in the past year and any that OECA will develop in the future. This
         alternative is not adequate considering the limitations OECA itself acknowledged
         in its September 29, 2004, memo to us requesting assistance in developing
         methodologies for producing statistically valid noncompliance rates. The Agency
         concurred with Recommendation 3-2 to increase transparency. OECA included


                                         20

two tables with lists of reports that we included as Appendix F. However, OECA
did not agree to publish other compliance information that shows significant
noncompliance rates, ‘hit’ rates, recidivism, and the time taken to bring violators
to compliance. Appendix E includes the Agency’s comments on specific
recommendations and other general comments, and our evaluation of those
comments.




                                 21

                                                                                   Appendix A

   OECA’s Regulatory Universe Identification Table – 

                Executive Summary 


Our analysis of OECA’s September 2001 Regulatory Universe Identification Table found that
OECA listed 14 statutes that had one or more programs (or programmatic descriptions). OECA
included “federal facilities,” “tribes,” “wetlands,” “UST” (underground storage tanks), and
“multi-media” as statutes even though they are not, by themselves, statutes. We identified 58
separate program areas under the 14 statutes. Further, OECA consulted 36 different sources to
obtain the universe numbers for the 58 programs. Data sources came from both within and
outside of EPA and included enforcement and media-specific databases, final rule documents,
Bureau of Indian Affairs data, and Census information. The universe table also included
estimates when no database or source existed for a given regulatory area. In this case, according
to OECA staff, the estimate served as the best source for the universe number.

In the cover letter that accompanied OECA’s universe table, OECA explained that the total
universe of entities in EPA’s compliance and enforcement databases is approximately
1.6 million. OECA derived the rest of the universe numbers from various other sources,
including Agency publications and databases. We noted that OECA incorrectly totaled its
universe of regulated entities. While the Executive Summary states that OECA’s universe is
41.1 million entities, we found, after reviewing the figures, that OECA’s 2001 regulatory
universe should have been listed as 41.8 million entities. We also found other math transcription
errors while analyzing OECA’s universe table, including two instances where the number listed
in OECA’s universe table for a particular program did not match the number OECA listed in the
executive summary for that same program. For example, under the CWA National Pollutant
Discharge Elimination System statute, OECA lists a number of 29,688 for “biosolids/sludge
active POTWs” (Publicly Owned Treatment Works) in the universe table, but lists that figure as
29,668 in the Executive Summary.

We transcribed the following table and endnotes directly from OECA’s September 2001
Regulatory Universe Identification Table. To maintain the integrity of the source document, we
did not spell out abbreviations or correct any spelling, punctuation, or spacing errors.




                                               22

           OECA Regulatory Universe Identification Table - Executive Summary

 Statute               Programmatic Description               Universe Estimate   Universe in Database
CAA         Major Stationary Sources (AFS)                                                      23,868
            Minor Stationary Sources (AFS)                                                      96,866
            Synthetic Minor Stationary Sources (AFS)                                            17,248
            Chlorofluorocarbon Sources (AFS)                                                     4,292
            Asbestos Work Practice Standards Notifications                                      96,954
            (NARS)
            Section 112(r) Risk Management Plans                                                15,081
            Mobile Sources                                              324,830
CWA         Major permitted facilities (PCS)                                                     6,599
NPDES
            Minor Permitted facilities (PCS)                                                    87,844
            Pretreatment significant industrial users                    30,000
            Biosolids (Sludge) (PCS)                                     29,668                  5,143
            Wet Weather facilities - Stormwater permits                 380,000                 41,613
            CAFOs                                                        12,660
Wetlands    Total acreage                                              105.5 M
RCRA        Treatment, Storage, and Disposal (TSD)                        2,393                  2,973
            Facilities*
            Large Quantity Generator (LQG) Facilities*                   20,876                 30,231
            Small Quantity Generator (SQG) Facilities                                          202,965
            Conditionally Exempt Small Quantity Generator                                      108,780
            (CESQGs) Facilities
            Transporter Facilities                                                              13,223
            RCRA Non-Notifier Facilities                                                         7,076
            “Other” Facilities in RCRAInfo                                                     230,870
SDWA        Public Water Systems: Community Systems                                             54,101
            Public Water Systems: Non-Transient Non-                                            20,429
            Community Systems
            PWS: Transient Non-Community Water Systems                                          93,034
            UIC: Class I Wells                                                                     533
            UIC: Class II Wells                                                                156,215
            UIC: Class III Wells                                                                15,452
            UIC: Class IV Wells                                                                      4
            UIC: Class V Wells                                          650,000                207,429



                                                        23

 Statute              Programmatic Description                Universe Estimate   Universe in Database
FIFRA      Total Registered Pesticides                                   20,000
           Total Registrants with active pesticide                        1,963
           registrations
           Pesticide Production Establishments (Active)                                         12,442
           Commercial Pest Control Firms                                 40,000
           Agricultural Sector
           Total Number of Farms                                      2,194,070
           Total Amount of Farm Acreage                             947,340,000
           Total Number of Agricultural Workers                       4,135,315
           Total Number of Farms And Business Sites                   2,246,512
           Regulated Under Pesticide Programs
EPCRA      Toxic Release Inventory (TRI) Reporting                                              22,639
           Universe - Total number of facilities
           Total Number of 311/312 Facilities                           559,600
TSCA       Core TSCA - Chemical Manufacturers                            13,513
                         - Other manufacturers, processors,           3,758,176
           distributers, users and exporters
           Polychlorinated Biphenyls (PCBs) - Storage &
           Disposal Sectors                                                  89
           Commercial Storers                                                48
           Commercially Permitted Disposal Companies                          4
           Commercial Decontamination Facilities                              7
           Scrap Metal Oven Facilities
           PCBs– Utility/Non-utility Waste Generators
              Electrical Utility Industry                                 3,215
              Total Number of Non-Utility Establishments              6,404,244
           with PCB-contaminated Equipment                                2,500
              Company-registered Transformer Facilities                  20,742
                - Transformers in operation
           Lead-based (Pb) Paint - 402/404
           Total Training Program Providers                                177
           Lead-based Paint activities
            – Firms                                                       4,069
            – Individual Workers                                         17,249
           Pb-based paint - 1018
              - Targeted Housing                                     99,500,000
              - Real Estate Firms                                        92,000
              - Real Estate Agents                                      352,000
              - Property Managers                                       243,000




                                                     24

   Statute                   Programmatic Description                       Universe Estimate         Universe in Database
                 Pb-based Paint - 406
                 - Annual Number of Target Units Subject to                           18,500,000
                 Renovation Requirements                                                 482,000
                 - Total Number of affected Renovation Firms
                 - Total Number of Contractor Personnel most                           2,272,000
                 likely to be involved in Pb-based paint renovation
                 activities:
                 Total Number of Entities Regulated under                              5,356,984
                 Asbestos AHERA/MAP Programs
 Federal         Number of Federal Facilities Subject to                                                                 11,670
 Facilities      Environmental Regulations
 Tribes          Number of Federally Recognized Tribes                                        556
                 Total Population                                                      1,400,000
                 Total Acreage of Tribal Lands                                        54,893,267
                 Federal, industrial, commercial, and municipal                                                           1,645
                 facilities located on Tribal areas
 CERCLA          National Priorities List (NPL) Sites (non-federal                                                        1,349
                 facility) – Proposed, Final & Deleted
                 Total number Non-NPL Sites (non-federal                                                                  8,884
                 facility)
                 NPL Federal Facilities – Total number of sites                                                             176
                 (Proposed, Final & Deleted)
                 Non-NPL Federal Facilities – Total number of                                                               781
                 sites
 OPA             Oil Storage Facilities Subject to SPCC                                  469,289
                 Requirements
 UST             Active Underground Storage Tanks                                        713,666
 Multi           Facilities tracked by two or more media programs                                                        15,733
 media           (CAA, CWA, or RCRA)

The total universe estimate of entities under the responsibility of EPA’s enforcement and compliance programs is approximately
41.1 million (the sum of all bolded numbers in the universe estimate and universe in database columns).
The total universe of entities maintained in EPA databases is approximately 1.6 million. This is the sum of the numbers in the
universe in database column, except for the RCRA TSD and LQG numbers, which were summed from the universe estimate
column (see the asterisked footnote below regarding the RCRA data), and excluding the federal facility, tribal, and multimedia
numbers, which are accounted for in the media-specific counts.
Note: In summing entities across media categories, an unknown amount of multiple-counting (i.e., of the same facility regulated
by several EPA programs) is inevitable.
Universe Estimate provides a documented estimate of all facilities/entities, taken from Agency publications, ICRs, databases, and
other sources. Universe in Database provides a snapshot of the number of facilities/entities that are tracked by EPA program
databases. Please refer to the full version of this table for detailed information about each universe category and estimate.
*: Both universe estimate and universe in database numbers are generated from RCRAInfo data. The universe estimate number
represents the subset of handlers with inspection, violation, and/or enforcement activity within the past five years (“active” per
FY2001RECAP definition).
September 21, 2001 Version 4.exec
USEPA / OECA / OC / EPTDD / IUTB




                                                               25

                                                                                           Appendix B

            Environmental Statute Information and 

         Program-Specific Facility Size Classifications 


The following briefly summarizes the environmental statutes that cover our sample program
areas. Where applicable, we described how OECA defined large and small, or major and minor
entities (FIFRA and TSCA programs do not distinguish between large and small entities).

 CAA      Background
                 The Clean Air Act (CAA) created a national program to control the damaging effects of
                 air pollution.
          Large/Small Entity Classifications
                 Stationary sources of air pollution include factories, processing plants, chemical
                 plants, refineries, and utilities.
                 Major Stationary Source: Any stationary source or group of sources located in a
                 contiguous area, with potential to emit more than 100 tons of pollutant per year, or,
                 for hazardous air pollutants, 10 tons per year.
                 Minor Stationary Source: Any stationary source that has the potential to emit air
                 pollutants at less than the major stationary source thresholds, or is not classified as a
                 synthetic minor source, and is subject to Federal regulations.
                 Synthetic Minor Source: Any stationary source that has the capability to emit air
                 pollutants at or above the major stationary source threshold but is considered a minor
                 source because it places physical or operational limitations on its capacity to emit
                 pollution.


 CWA      Background
                 The Clean Water Act (CWA) is the primary Federal law that protects the Nation’s
                 waters, including lakes, rivers, and coastal areas.
          Large/Small Entity Classifications
                  The National Pollutant Discharge Elimination System (NPDES) program controls
                  water pollution by regulating point sources that discharge into U.S. waters. The
                  majority of NPDES facilities are classified as either:
                  Major Permitted Facilities: Municipal or industrial facilities that directly discharge
                  effluent, based on design flow or a qualifying permit rating score.
                  Minor Permitted Facilities: Municipal or industrial facilities that directly discharge
                  effluent, but are not designated as major dischargers.
                  Stormwater Permits: Permits issued through a two-phased national program for
                  regulating non-agricultural sources of stormwater discharges and run-off. Phase I
                  required stormwater permits for large municipalities, industrial plants, and commercial
                  construction sites. Phase II requires permits for smaller municipalities and smaller
                  construction sites.


 FIFRA    Background
                 The Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA) regulates the sale,
                 distribution, and use of pesticides through a registration system.



                                                  26
RCRA   Background
              The Resource Conservation and Recovery Act (RCRA) regulates hazardous and
              municipal and industrial solid waste generated nationwide. RCRA Subtitle C
              establishes a system for controlling hazardous waste from the time of generation until
              ultimate disposal and includes regulations for the generation, transportation,
              treatment, storage, or disposal of hazardous wastes.
       Large/Small Entity Classifications
              The statute defines three categories of generator facilities based on volume:
               Large Quantity Generator Facilities:
               • Greater than 1,000 kg of hazardous waste per calendar month (approximately
                  2,200 lbs); or
               • Greater than 1 kg of acutely hazardous waste per calendar month (approximately
                  2.2 lbs).
               Small Quantity Generator Facilities:
               • Between 100 kg (approximately 220 lbs) and 1,000 kg of hazardous waste per
                  calendar month; and
               • Accumulate less than 6,000 kg (approximately 13,200 lbs) of hazardous waste at
                  any time.
               Conditionally-Exempt Small Quantity Generator Facilities:
               • Less than 100 kg of hazardous waste per calendar month; or
               • Less than 1 kg of acutely hazardous waste per calendar month; and
               • Accumulate less than 1,000 kg of hazardous waste, 1 kg of acute hazardous
                  waste, or 100 kg of any residue from the cleanup of a spill of acute hazardous
                  waste at any time.


SDWA   Background
              The Safe Drinking Water Act (SDWA) ensures public health protection by public water
              systems complying with all health-based standards, including monitoring and reporting
              requirements. Through the Public Water System Supervision program, EPA
              implements and enforces drinking water standards to protect public health.
       Large/Small Entity Classifications
              EPA defines Public Water Systems, by type and number of people they serve, as
              either community systems or non-transient non-community systems. A community
              system is a public water system that supplies water to at least 15 service connections
              or 25 people year-round in their primary residences. Non-transient non-community
              systems serve at least 25 of the same persons over 6 months per year. Transient
              non-community water systems serve at least 25 persons (not the same 25 persons)
              over 6 months per year. EPA does not regulate drinking water wells that supply water
              to fewer than 25 people.


TSCA   Background
              The Toxic Substances Control Act (TSCA) authorizes EPA to secure information on
              and regulate all new and existing chemical substances, as well as control any
              substances determined to cause unreasonable risk to public health or the
              environment. “Core” TSCA regulates industrial chemicals, exclusive of
              Polychlorinated Biphenyls, lead-based paint, and asbestos.




                                              27

                                                                                      Appendix C

                 Details on Scope and Methodology
To gain a general understanding of OECA’s regulated universe and associated enforcement and
compliance activities and resources, we reviewed policy and guidance documents, including:

    Supplemental Information for EPA Fiscal            Enforcement Response Policies for program
     Year 2003 Annual – Integrity Act Report and         area sample
     Key Management Challenges
    Memoranda of Agreement Guidance                    Fiscal Year 2005 Annual Performance Plan
     Priorities – Fiscal Years 1996-2007                 and Congressional Justification
    Fiscal Year 2005 Budget                            End-of-Year Accomplishments Reports
    Fiscal Year 2005-2007 National Program
     Guidance

We also interviewed staff in the following OECA offices:

 Office of Site Remediation Enforcement
 Office of Civil Enforcement
      Air Enforcement Division
      Water Enforcement Division
      RCRA Enforcement Division
      Toxics and Pesticides Enforcement Division
 Office of Compliance
      National Planning Measures and Analysis Division
      Enforcement Targeting and Data Division
      Compliance Assessment and Media Programs Division
      Compliance Assistance and Sector Programs Division


We reviewed relevant reports, including:

 EPA Office of Inspector General
     EPA’s Key Management Challenges (2001, 2002, 2003)
     Information Technology: Unreliable Data Affects Usability of DOCKET Information (2002)
 Government Accountability Office
     Environmental Information: EPA Needs Better Information to Manage Risks and Measure
       Results (2000)
     Human Capital: Implementing an Effective Workforce Strategy Would Help EPA to Achieve Its
       Strategic Goals (2001)
     Major Management Challenges and Program Risks – Environmental Protection Agency (2003)
 National Academy of Public Administration
      Evaluating Environmental Progress: How EPA and the States Can Improve the Quality of
         Enforcement and Compliance Information (2001)
      Environmental Performance Measures in a Federal System (2000)
 Environmental Council of States
     Report to Congress - State Environmental Agency Contributions to Enforcement and
        Compliance (2001)



                                                   28

Sample of Six Regulatory Program Areas

We reviewed and summarized environmental statutes for our sample program areas (see
Appendix B for descriptions). The table below lists the 2001 universe numbers for the six
environmental statutes covering our sample program areas, with specific program areas reviewed
in bold type. Our six sample areas comprise just over 16 percent of OECA’s 2001 total universe
of regulated entities. We obtained the numbers from the Executive Summary OECA included
with its 2001 Regulatory Universe Identification Table (see Appendix A).

 Statute                  Programmatic Description                         2001 Universe Number
CAA        Major Stationary Sources                                                          23,868
           Minor Stationary Sources                                                          96,866
           Synthetic Minor Stationary Sources                                                17,248
           Others (includes mobile sources)                                                 441,157
                                                                         CAA Total          579,139
CWA        NPDES - Major Permitted Facilities                                                 6,599
           NPDES - Minor Permitted Facilities                                                87,844
           NPDES – Stormwater Permits                                                       380,000
           NPDES - Others (includes biosolids and Concentrated                               72,328
           Animal Feeding Operations)
                                                                         CWA Total          546,771
RCRA       Treatment, Storage, and Disposal Facilities                                        2,393
           Large Quantity Generator Facilities                                               20,876
           Small Quantity Generator Facilities                                              202,965
           Conditionally Exempt Small Quantity Generator Facilities                         108,780
           Others (includes transporters, non-notifiers, and other                          251,169
           facilities included in EPA’s RCRA data system)
                                                                         RCRA Total         586,183
SDWA       Public Water Systems: Community Water Systems                                     54,101
           Public Water Systems: Transient and Non-Transient                                113,463
           Non-Community Systems
           Others (includes underground injection control wells)                            822,204
                                                                        SDWA Total          989,768
FIFRA      Total Number of Farms and Business Sites Regulated                             2,246,512
           under Pesticide Programs
                                                                         FIFRA Total      2,246,512
TSCA       Core TSCA - Chemical Manufacturers                                                13,513
           Core TSCA - Other Manufacturers, Processors,                                   3,758,176
           Distributors, Users and Exporters
           Others (includes facilities related to Polychlorinated                        31,341,591
           Biphenyls and lead-based paint)
                                                                        TSCA Total       35,113,280
                                                         Sample Program Area Total        6,755,868
                                                                        Table Total      40,061,653




                                                   29

To answer both the universe and compliance objectives, we judgmentally selected the six sample
program areas, as case studies, from OECA’s 2001 Regulatory Universe Identification Table.
This sample was based on information gathered from our preliminary research. A preliminary
analysis of the Regulatory Universe Identification Table showed that OECA’s universe of
41 million entities included a diverse and complex mix of entities of varying sizes and types.
Small entities made up a much greater part of the universe than the major and large entities.
A review of OECA’s planning documents also showed that a handful of programs were selected
as national priorities, and others were described as core programs. While OECA is ultimately
responsible for regulating all 41 million entities, it focuses its regulatory attention on national
priority program areas, while the States are primarily responsible for core programs. To conduct
a balanced evaluation of OECA’s knowledge of the regulated universe, it was important to select
a sample which reflected the mix of program areas for which OECA is both ultimately
responsible and it had represented as falling under its regulatory authority in its Regulatory
Universe Identification Table.

OECA’s Knowledge of Its Regulated Universe

To determine OECA’s knowledge of the composition and size of its regulated universe, we
analyzed OECA’s 2001 regulated universe table. We compared 2001 universe figures to 2005
data provided by OECA staff for six sample program areas. We met with staff in EPA’s Office
of Water to discuss OECA’s universe number for the CWA-NPDES stormwater program. We
also interviewed OECA staff to understand any challenges associated with obtaining accurate
universe numbers for our sample regulatory programs, as well as to discuss the benefit of
knowing the composition and size of the regulated universe. We did not independently verify
the accuracy of data provided by OECA. We did review EPA’s fiscal 2005 Annual Performance
Plan for Goal 5, where EPA identified data problems, limitations, and reliability issues in
OECA’s databases and data. We used that information to identify limitations in the reliability of
OECA’s universe numbers. In addition, we applied a methodology described in GAO’s October
2002 report, Assessing the Reliability of Computer Processed Data (GAO-03-273G). We
reviewed additional data quality materials, including OECA’s:

    “Enforcement and Compliance Reporting            “Ensuring Integrity of Reporting Enforcement
     Process for FY 2004” Memorandum                   and Compliance Data" Memorandum
     (March 12, 2004)                                  (May 6, 2003)
    “Final Enforcement and Compliance Data           Information from OECA’s Web site on various
     Quality Strategy” (March 25, 2002)                enforcement and compliance databases
    Data quality quarterly reviews



Changes in Regulatory Compliance

To determine how OECA determines and reports levels of compliance in its regulated universe,
we reviewed general information on compliance monitoring as well as how OECA defines
compliance through its enforcement response policies. We interviewed representatives from the
National Academy of Public Administration, the Environmental Law Institute, and the
Environmental Compliance Consortium on how OECA measures changes in regulatory
compliance. We interviewed OECA managers and staff to understand how they determine and


                                                30

report compliance in our sample program areas, as well as any challenges associated with
demonstrating changes in regulatory compliance. We discussed conditions we identified during
the review of the sample with OECA managers to determine whether the problems were limited
to the program areas, or whether they were systemic and OECA-wide conditions. In instances
where the condition was systemic, we reported it as a general condition. We analyzed the cause
of the problem, and developed recommendations to address the cause of the condition.




                                              31

                                                                                   Appendix D

        Agency Response Memorandum to Draft Report


                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                             WASHINGTON, D.C. 20460

                                                                                              OFFICE OF
                                                                                     ENFORCEMENT AND
                                                                                 COMPLIANCE ASSURANCE




                                        August 1, 2005

MEMORANDUM


SUBJECT: 	 The Office of Enforcement and Compliance Assurance=s Agency Response to the
           Draft, AEvaluation Report: Limited Knowledge of the Universe of Regulated
           Facilities Impede=s EPA=s Ability to Demonstrate Changes in Regulatory
           Compliance,@ dated June 30, 2005

FROM:          T
               	 homas V. Skinner
               Acting Assistant Administrator

TO: 	          Jeffrey K. Harris
               Director
               Program Evaluation, Cross-Media Issues
               Office of Inspector General


Introduction

        Today, on behalf of the Office of Enforcement and Compliance Assurance (OECA) and
as the designated AAction Official,@ I am forwarding to you our consolidated Agency Response
(Response) regarding the Office of Inspector General=s (OIG) draft AEvaluation Report: Limited
Knowledge of the Universe of Regulated Facilities Impede=s EPA=s Ability to Demonstrate
Changes in Regulatory Compliance,@ dated June 30, 2005.

        In accordance with the instructions provided in your June 30, 2005 memorandum, the
Response addresses the factual accuracy of the draft Evaluation Report. Consistent with those
instructions, the Response also specifically indicates whether OECA concurs with each of the
recommendations proposed by the OIG. Further, to the extent that action has already been
initiated or planned to address issues identified in the draft Evaluation Report, the Response


                                                32

specifically identifies those actions that have been initiated or planned. Finally, your June 30,
2005 memorandum expressly states that the Afinal report will include an assessment of [the]
comments@ made in the Response. Consequently, I am specifically requesting that this
memorandum and the attached Response be attached to, and be made a part of, the final version
of the draft Evaluation Report.

Principal Concerns

        While we appreciate the effort made by the OIG to provide a useful review of the data we
had developed in 2001 to better understand the regulatory universe, we were troubled by a
number of practices which were used in this evaluation. We would ask that the OIG consider our
concerns both for purposes of possible revisions to this evaluation and as suggestions about the
conduct and content of future evaluations. Given the amount of time that the staff and managers
of OECA and OIG are investing in these evaluations, it is important that the evaluations focus on
the most important issues, provide clear and meaningful findings, and yield recommendations
that add value and improve the effectiveness of our Agency programs.

        Here are the general comments we offer about the report as a whole. Comments on
specific findings and recommendations are included in the attached response.

   1.	 Limitations of Judgmental Sampling. We are very concerned that judgmental
       sampling of six segments of the regulated universe produced results that are biased
       (i.e., not representative of the larger population being
                                                                            See OIG Response in
       examined). Judgmental sampling can only characterize the              Appendix E, Note 1
       types of problems that might exist in the full set of universe
       data, but it cannot quantify the size of the problem for the full
       set of universe data. While the OIG states that it Acannot use our judgmental sample to
       generalize to OECA=s entire population,@ that caveat did not constrain the OIG from
       making a very sweeping set of recommendations to address the issues it identified
       through the use of a technique with very significant limitations. (See pages 2 and 3 of
       our attached response for a full description of our concerns.)

   2. 	 Findings Broader Than the Supporting Evidence. In several instances, the evaluation
        presents findings that are much broader than the issue the OIG is raising or the evidence
        it is providing. The primary example of this problem is the
        finding entitled, AOECA Does Not Focus Activities on                 See OIG Response in
        Majority of Facilities,@ on page 8 of the draft evaluation.           Appendix E, Note 2
        While it may be true that in recent years enforcement actions
        have focused increasingly on larger facilities associated with OECA=s national
        enforcement priorities (though we note that the OIG presents no quantitative evidence of
        this), OECA=s compliance assistance program since its inception has been focused on
        serving smaller facilities which often lack the resources or expertise to achieve and
        maintain compliance. Of the 14 OECA-sponsored online Compliance Assistance Centers
        (visited more than one million times last year), 12 are serving sectors comprised
        primarily of small businesses. In addition, other compliance assistance initiatives in
        sectors dominated by small businesses (e.g., dry cleaners, construction, auto repair) have



                                                33

    been undertaken to provide tailored assistance to meet the specialized needs of small
    businesses. (See pages 8 and 9 of our attached response for a full description of our
    concerns.)

    A second example of the IG drawing findings which are too broad is its assertion that
    AOECA Lacks Transparency in Sharing Data,@ on page 15 of the draft report. In our
    response we point out the many different types of compliance data we make available to
    the public. We describe the Enforcement and Compliance History Online (ECHO) web
    site which has been used by two million visitors to find facility-specific inspection and
    enforcement data. We also detail in Table 3 (pages 19-21), the various types of
    compliance data we make publicly available for all the major EPA programs. The OIG
    may want more transparency, but to say that OECA lacks transparency in sharing data is
    inaccurate.

3. 	 Recommendations Broader than the Findings Being Addressed. Several of the
     recommendations seem disproportionate to the problem they are meant to solve. The
     primary example of this disproportionality is
     Recommendation 2.4, specifically the portion of the                   See OIG Response in
                                                                            Appendix E, Note 3
     recommendation directing OECA to require states to Atrack,
     record, and report data for facilities over which states have
     regulatory responsibility... [and] develop a multi-state, multi-program pilot program for
     tracking, recording, verifying, and reporting of state data.@ Because the OIG has
     identified that OECA has not updated its universe table since 2001 and a determination
     (through a non-representative judgmental sample of six regulated populations) that the
     universe table must be updated, it now recommends a very large and resource-intensive
     goal of increasing state reporting. In our response, we describe the significant regulatory,
     procedural and resource barriers to increasing state reporting. We believe that the
     Asolution@ (i.e., significant new data reporting requirements for states) is a complete
     mismatch and way out of proportion to the Aproblem@ (i.e., the need for more reliable
     universe data). (See page 6 of our response for a full description of our concerns about
     increasing the reporting burden on states.)

4. 	 Exclusion of Relevant Information. We believe the evaluation at times ignores
     important information about OECA programs and leads to poorly conceived findings and
     recommendations. For example, in the section about
     OECA=s description of its role, the evaluation does not          See OIG Response in
     provide a complete and accurate description of the relative       Appendix E, Note 4
     roles of EPA and the states, opting instead for a very
     simplistic view which seems to color the OIG=s judgment about the findings and
     recommendations in the report. Additionally, as described above, the OIG fails to take
     into account that OECA=s compliance assistance program is and always has been focused
     on sectors comprised of small facilities. As a result, the OIG makes an inaccurate finding
     that AOECA Does Not Focus Activities on Majority of Facilities.@




                                             34

      5. Disconnect from Procedural /Resource Barriers and Competing Demands. In some
         of the recommendations in this evaluation, the OIG does not take into account the
         regulatory and procedural obstacles that would be
         encountered and the significant resource commitments that           See OIG Response in
         would be necessary for implementation. Similarly, the OIG            Appendix E, Note 5
         seems never to consider existing demands already placed on
         organizations and the relative importance of those demands versus proposed OIG
         recommendations. The OIG=s recommendation for increased state reporting of data
         would require a large investment of personnel and energy to overcome the regulatory and
         procedural barriers and resource shortfalls described in our response (see page 6).
         Moreover, it could well disrupt OECA=s and the states= progress toward modernizing
         single-media data systems and incorporating them into the Integrated Compliance
         Information System (ICIS).


     We look forward to working with you to finalize this report and on future evaluations of
OECA programs.

cc:      P
         	 hyllis Harris
         Michael Stahl
         Walker Smith




                                                35

                                                                                  Appendix E

        Agency Comments to OIG Recommendations
                  and OIG Evaluation
The Agency comments consisted of two parts – a transmittal memorandum with summary
discussion, and a document with detailed comments. We included the memorandum as
Appendix D; the detailed comments are available on the EPA OIG Web site at
www.epa.gov/oig. Two lists of reports that were part of OECA’s detailed comments are
provided in Appendix F. Appendix E includes each specific OIG recommendation, the Agency’s
comments on those recommendations, and our evaluation of comments from both Agency
comment documents. In this appendix, we first evaluate the Agency’s comments from the
detailed comment document to our recommendations, and follow this in Notes 1 through 5 with
our responses to the five points discussed in the Agency’s memorandum in Appendix D.

OIG Recommendation 2-1: Biannually update publicly released universe figures by tracking
and recording the number of entities over which it has oversight and primary regulatory
responsibility.

       Agency Comments: Non-concur. As an alternative, only universe figures updated
       within the previous two years will be released to the public. OECA will begin the process
       of updating universe figures for populations associated with its national priorities and
       complete that update within six months. Further, OECA will remove the 41 million
       universe figure from its National Program Guidance and not use it in any future public
       documents.

       OIG Evaluation: Updating the universe numbers for populations associated with the
       handful of national priority program areas is a beginning. However, it will not indicate
       the complete universe of regulated entities for which OECA is responsible for ensuring
       compliance. Not releasing the number of regulated facilities will subject EPA to the
       same July 2001 GAO criticism noted in Chapter 1 of this report. GAO had stated that
       OECA could not demonstrate “the universe of entities subject to regulation under federal
       environmental laws.” OECA has not provided any reasons to show there is more value to
       updating the universe of the five national priority areas in lieu of all program areas.
       Additionally, OECA has not provided any timetable for updating universe information on
       a regular basis. OECA officials said OECA management has assigned other projects
       higher priority. Nevertheless, as OECA itself has recognized, knowledge of the size and
       character of the regulated universe is fundamental for a regulatory body, and we continue
       to recommend that OECA assign a higher priority to regularly updating that universe.

OIG Recommendation 2-2: When producing its biannual universe update, use reliable data to
generate complete and current universe numbers that meet national data quality standards similar
to those outlined in OECA’s Final Enforcement and Compliance Data Quality Strategy.




                                               36

       Agency Comments: Concur. When updating universe figures as described in response
       to recommendation 2.1, OECA will use complete, accurate, and current data in
       accordance with national data standards including those in OECA=s Data Quality
       Strategy.

       OIG Evaluation: OECA qualified its concurrence to ensure the quality of the universe
       data by referencing its response to Recommendation 2-1 on updating the numbers for
       national priority program areas only. We consider this a good start, but it will not meet
       the objective of knowing the full universe of regulated entities. OECA also commented
       that we should describe the data problems in universe numbers as data gap problems,
       explaining that data gaps exist when the statutes do not specifically require States to
       report data to EPA. OECA indicated that requiring more data would be burdensome to
       States due to shortfalls in State resources. OECA explained its use of estimates where
       data gaps existed, and objected to our using GAO criteria to evaluate data quality.
       We have modified the text to provide additional sources we used to find weaknesses in
       data quality. We also revised the discussion of the problems we found in the estimated
       numbers in OECA’s universe table. We cannot provide an opinion on the issue of
       resources as we have not analyzed OECA’s resource allocations and the process by
       which management assigns relative weight to tasks as part of this evaluation.

OIG Recommendation 2-3: Describe OECA’s enforcement and compliance role in relation to
States and other partners when the Agency publicly releases universe figures.

       Agency Comments: Concur. OECA will develop and add a more precise description to
       relevant documents to more clearly explain the respective roles and responsibilities of
       EPA and the states in maximizing compliance in the regulated universe.

       OIG Evaluation: We accept the concurrence.

OIG Recommendation 2-4: Develop an objective of having the most up-to-date and reliable
data on all entities that fall under its regulatory responsibility. OECA should adopt the goals of
requiring States to track, record, and report data for entities over which States have regulatory
responsibility. To achieve this goal, OECA should develop a multi-State, multi-program pilot
program of collecting data that States track, record, verify, and report.

       Agency Comments: Non-concur. While OECA believes that it currently subscribes to
       an objective of having current and accurate facility data, we believe this recommendation
       fails to take into account the significant procedural and resource barriers which impede
       expanded collection and reporting of data from states. Further, we believe that given the
       resource constraints under which the states are operating, a multi-state, multi-program
       pilot would be resisted vehemently by the states.

       As an alternative, OECA and the states will continue on their current path of
       modernizing single-media data systems and integrating them into ICIS (Integrated
       Compliance Information System). The modernization process is being done in full




                                                37

       consultation with states, on a schedule developed jointly by EPA and the states, and will
       achieve many of the improvements sought by the OIG.

       OIG Evaluation: We are aware of resource and procedural barriers in collecting
       additional information from States, and therefore recommended that OECA obtain
       knowledge in incremental steps by conducting pilot data collection programs. The pilot
       might reveal that data are readily available in some of the States. Also,
       Recommendation 2-4 addresses the problem of smaller and minor entities. OECA still
       needs to indicate how the modernization of OECA’s data systems will address the
       condition under discussion.

OIG Recommendation 2-5: Request that EPA program offices analyze and report to OECA the
cumulative impact of violations by regulated entities that pollute below the thresholds of major
or large entities. OECA should use any cumulative impact analyses conducted by program
offices to inform OECA’s management decisions.

       Agency Comments: Non-concur. As an alternative, OECA will request from program
       offices any and all currently available data and analyses of cumulative impact of small
       facilities. OECA will make this request within sixty days of the date of the final version of
       this OIG evaluation. OECA will use this information to identify emerging problems in
       sectors comprised of smaller facilities.

       OIG Evaluation: Collecting available analyses from program offices, and using the
       information to identify emerging problems in smaller facilities, is a move in the right
       direction. OECA may find that many such analyses exist within program offices.
       However, we recommend that OECA also request analyses for program areas where such
       analyses have not been done. As shown in Chapter 2, small and minor entities comprise
       a large part of the regulated universe; thus, it is important that OECA know their
       cumulative impact. OECA occupies a distinctive position in EPA in that it cuts across
       the Agency’s program offices. At a minimum, OECA can use these data and analyses to
       support its decisions to focus its enforcement and monitoring activities.

OIG Recommendation 3-1: To show the results of its national enforcement and compliance
program in maximizing compliance with environmental statutes, develop and publish
information that demonstrates changes in compliance within the regulated universe, by program
areas. Include any appropriate explanations of data quality issues or data caveats.

       Agency Comments: Non-concur. As an alternative, OECA will share with the public
       any statistically-valid compliance rates it has developed in the past year and any
       statistically valid rates it will develop in the future.

       OIG Evaluation: We reiterate that OECA should develop and publish information that
       shows changes in the levels of compliance within various program universes. OECA’s
       proposed alternative to publish only statistically valid rates falls short of the
       recommendation, considering the limitations OECA itself stated in its request for
       assistance from us in developing methodologies for producing statistically valid



                                                38

       noncompliance rates. In the detailed response to this report (available on the EPA OIG
       Web site at www.epa.gov/oig), OECA listed a total of 10 projects to develop statistically
       valid noncompliance rates from Fiscal Years 2000 through 2006. Each of the projects
       deals with a very limited sector or population. Given the limited number and scope of
       OECA’s statistically valid noncompliance rates, releasing only those rates would show
       extremely limited results of OECA’s efforts to maximize compliance in the regulated
       universe.

       Additionally, we note that OECA’s response to Recommendation 3-1 is inconsistent with
       its response to Recommendation 2-1. In our opinion statistically valid noncompliance
       rates cannot be generated without knowledge of the size of a program area’s universe.
       Therefore, OECA’s response to this recommendation is untenable.

OIG Recommendation 3-2: Share compliance data and analyses with external stakeholders to
provide a better understanding of programmatic compliance levels; include explanatory notes as
needed to ensure proper representation and understanding.

       Agency Comments: Concur. OECA will expand the amount of compliance data it will
       make available to the public on the EPA web site. The data which will be added to the
       web site is listed in Table 4 and includes a wide variety of information about compliance
       monitoring, enforcement cases, citizen complaints, cases resulting from voluntary
       disclosures, and more. OECA will post this data on the web site within 60 days of the
       release of the final version of this evaluation.

       OIG Evaluation: We commend OECA for its concurrence with Recommendation 3-2
       and its expansion of the amount of compliance data it plans to make available on the EPA
       Web site. We have provided, in Appendix F, two tables from OECA’s response.
       Releasing this additional information will increase transparency. However, we found that
       OECA did not include some other compliance-related rates that OECA generates. We
       reiterate the recommendation that OECA should publish the other compliance
       information that shows significant noncompliance rates, ‘hit’ rates, recidivism, and the
       time taken to bring violators to compliance. If OECA presents the information with
       appropriate explanations, readers should understand what the data represents. This
       information more directly links to compliance than most other measures OECA currently
       releases or plans to release. They show the results of OECA’s enforcement and
       compliance monitoring activities on noncompliant entities and facilities.


Notes on Principal Concerns

In this section we provide a summary of OECA’s comments (italicized) from the Agency
memorandum (included in full in Appendix D), followed by our evaluation.

NOTE 1 - Limitations of Judgmental Sampling: We are very concerned that judgmental
sampling of six segments of the regulated universe produced results that are biased (i.e., not
representative of the larger population being examined).


                                                39

       OIG Response: We do not consider OECA’s critique of our sampling approach and
       subsequent analysis valid. We used a qualitative – not quantitative methodology in this
       evaluation. Therefore, OECA’s concerns about quantifying from our sample are not
       applicable. To clarify any questions on our methodology, we added more details in the
       report and provide some additional detail and rationale below.

       The use of a judgmental sample was appropriate to answer our objectives. We selected a
       small judgmental sample to obtain case studies for a ‘qualitative’ and not a ‘quantitative’
       evaluation. We did not quantify, or extrapolate, the results from our sample across the
       entire universe. While we did determine that the size of the sample had changed by
       35 percent between 2001 and the present, this figure clearly did not apply to the entire
       universe. During the course of our review, when we found a condition that was systemic,
       we interviewed OECA managers to determine whether the condition was limited to the
       program area under review or was an OECA-wide policy or practice. Only when OECA
       managers confirmed that it was an OECA-wide policy or practice did we present it as a
       broader finding with a recommendation. We included appropriate explanatory caveats in
       those cases.

       We determined that case study analysis was an appropriate research design for our review
       because our objective sought to determine how well OECA knew the composition and
       size of universes within program areas. Statistical models are best used to measure
       across cases, while case studies are best to investigate within a case since they allow one
       to explore more in depth. While a judgmental sample limits generalization, the
       accompanying in-depth analysis can allow the evaluator to pursue questions that arise and
       determine whether a problem is endemic across the universe or confined to the sample.

       We do not agree with OECA’s opinion that the results of a judgmental sample are
       automatically biased. Selection bias usually occurs when the sampling includes some
       type of systematic error. In designing the sampling plan, we took care to capture an array
       of program areas for which OECA bears responsibility: small and large, across media
       areas, national priority and core programs, and those in which OECA shares regulatory
       responsibility with States versus those it does not. This sampling technique explicitly
       acknowledged the heterogeneity of OECA program areas. This sample is more
       representative of the program areas OECA included in the universe totals than if we had
       included only major programs or national priority programs in a sample.

NOTE 2 - Findings Broader than the Supporting Evidence: In several instances, the
evaluation presents findings that are much broader than the issue the OIG is raising or the
evidence it is providing.

       OIG Response: We do not agree with OECA’s comment. We revised some of the
       report language to ensure statements may not be interpreted to imply more than intended.
       We also expanded the description of our scope and methodology to explain when the
       finding or recommendation is broader than the specific program area in our sample. As
       discussed regarding Note 1, during the course of our review we found certain conditions



                                               40

       that could be systemic across the entire universe for which OECA is responsible. After
       confirming with OECA managers, we presented each as a finding that may be broader
       than the specific program area in our sample. We added language to explain this. Also,
       as suggested by OECA, we added discussion on OECA’s use of compliance assistance
       activities to target small businesses and entities. While OECA provides compliance
       assistance to many small entities, it nevertheless does not focus the majority of its
       compliance monitoring resources on small entities. In reviewing our sample areas we
       found that many of OECA’s databases do not include compliance monitoring histories, or
       even facility identification information for many of the small entities over which OECA
       has oversight responsibility. OECA’s response does not address this point.

A second example of the IG drawing findings which are too broad is its assertion that AOECA
Lacks Transparency in Sharing Data….@

       OIG Response: We added Tables 3 and 4 from OECA’s response to Appendix F of our
       report (the tables are shown in our report as Tables 1 and 2). These tables list the types of
       compliance information that OECA now releases. However, OECA does not publicly
       release compliance information that can inform Congress and the public as to whether
       compliance has increased across programs. While OECA makes facility-specific
       compliance information available on its ECHO Web site, Congress and the public do not
       have the ability to determine whether OECA is achieving its central goal of maximizing
       compliance across the regulatory programs for which it is responsible. Programmatic
       compliance information will allow OECA to know whether compliance is increasing or
       decreasing, whether its targeting strategies are successful, and whether its mix of
       compliance tools and methods is effective. It also provides Congress and the public the
       means to determine whether there are regional and geographic differences in
       environmental problems, approaches, and solutions. OECA already produces some
       compliance rates in Online Tracking Information System management reports. We urge
       OECA to release to the public the information it currently possesses internally, with the
       necessary caveats.

NOTE 3 - Recommendations Broader than the Findings Being Addressed: Several of the
recommendations seem disproportionate to the problem they are meant to solve. The primary
example of this disproportionality is Recommendation 2-4, specifically the portion of the
recommendation directing OECA to require states to Atrack, record, and report data for facilities
over which states have regulatory responsibility... [and] develop a multi-state, multi-program
pilot program for tracking, recording, verifying, and reporting of state data.@

       OIG Response: We do not agree with OECA’s comment that the recommendations are
       disproportionate to the problems they are supposed to remedy. We developed the
       recommendations to match the breadth of the conditions and causes. If a condition is due
       to a systemic cause, the recommendation addresses the cause of the problem. OECA has
       oversight responsibilities over State compliance and enforcement activities of many small
       entities. OECA agrees in its response that the knowledge of the size and character of the
       regulated community is fundamental to a regulatory agency’s effectiveness. Our analyses
       show that some of OECA’s universe has changed. OECA has explained it has data gaps



                                                41

       because States do not report on smaller entities. Therefore we concluded that OECA
       does not know the size, nature, or character of its full universe because of these gaps.
       This limits OECA’s ability to exercise its oversight responsibilities, and we developed
       recommendations addressing this problem. Also, OECA needs a broad range of
       knowledge of regulated entities for which it is responsible to fully exercise oversight, and
       again we made recommendations accordingly. This data will provide OECA, Congress,
       and the public with information on entities for which EPA is ultimately responsible.

NOTE 4 - Exclusion of Relevant Information: We believe the evaluation at times ignores
important information about OECA programs and leads to poorly conceived findings and
recommendations.

       OIG Response: We do not agree with OECA’s comments. We gathered and reviewed
       extensive amounts of documentation and information, and held numerous meetings with
       OECA staff and managers. We also met with external stakeholders and experts and
       reviewed documents and reports from external sources (see Appendix C). We reported
       the significant conditions that we identified as a result of the evaluation, and included the
       information pertinent to presenting the findings and recommendations. We do not
       believe we omitted important information in our draft report. Nonetheless, as suggested
       by OECA, we added information on OECA’s use of compliance assistance for interacting
       with small entities, as well as additional information on various other issues.

       OECA also commented that we offered a simplistic view of OECA’s relationship with
       the States that resulted in mischaracterized findings and recommendations. We recognize
       that OECA has broad and varied relationships with States. One of these central
       relationships is OECA’s oversight of States’ program activities, and without obtaining
       knowledge of the full universe, OECA cannot fully exercise this oversight authority.

NOTE 5 - Disconnect from Procedural/Resource Barriers and Competing Demands:
In some of the recommendations in this evaluation, the OIG does not take into account the
regulatory and procedural obstacles that would be encountered and the significant resource
commitments that would be necessary for implementation.

       OIG Response: We recognize OECA’s regulatory and procedural constraints in
       obtaining data from States that States are not required by statute to provide. However, in
       our opinion, it is fundamental for OECA to have an adequate range of knowledge about
       the entities it regulates, and OECA agrees with this central premise. Since it is critical for
       OECA to have this knowledge, it should pursue the best possible procedures to get this
       data. Due to the procedural constraints faced by OECA, we recommended that they
       accomplish this incrementally. Expanded universe data will ultimately provide OECA,
       and therefore Congress and the public, with increased information on entities for which
       EPA is responsible for regulating compliance.




                                                42

                                                                                     Appendix F

                      Publicly Available Compliance and 

                            Enforcement Measures 


OECA provided the following two lists of reports that it plans to make publicly available
during 2005.


                      Table1. Enforcement and Compliance Measures and Reports
                                     FY(s)
               Data                 Available         Reports/Website in Which Measure Appears
Acres of Wetlands Mitigated        2000-2004    Five-Year Trend Charts1, Numbers-at-a-Glance1
Administrative Compliance          2000-2004    Results Summary1, Five-Year Trend Charts1,
Orders                                          Numbers-at-a-Glance,ECHO2
Administrative Penalties           2000-2004    Results Summary, Five-Year Trend Charts,
                                                Numbers-at-a-Glance, ECHO
Administrative Penalty Orders      2000-2004    Results Summary, Five-Year Trend Charts,
                                                Numbers-at-a-Glance, ECHO
Civil Case Highlights              2004         Case Highlights1, ECHO
Civil Judicial Referrals           2000-2004    Results Summary, Five-Year Trend Charts,
                                                Numbers-at-a-Glance
Civil Judicial Settlements         2000-2004    Five-Year Trend Charts, ECHO
Compliance Assistance Activity     2004         Case Highlights
Compliance Incentives Program      2000-2004    Results Summary
Complying Actions                  2003-2004    Results Summary, ECHO
Criminal Case Highlights           2004         Case Highlights
Criminal Defendants Charged        2000-2004    Five-Year Trend Charts, Numbers-at-a-Glance
Criminal Fines and Restitution     2000-2004    Results Summary, Numbers-at-a-Glance
Criminal Investigations            2000-2004    Five-Year Trend Charts
Criminal: Judicial Mandated        2000-2004    Numbers-at-a-Glance
Projects
Criminal: Pounds of Pollution      2000-2004    Five-Year Trend Charts, Numbers-at-a-Glance
Reduced, Treated or Properly
Managed
Cubic Yds of Contaminated Soil     2000-2004    Five-Year Trend Charts, Numbers-at-a-Glance
to be Cleaned Up
Cubic Yds of Contaminated          2000-2004    Five-Year Trend Charts, Numbers-at-a-Glance
Water to be Cleaned Up
Entities Reached through           2000-2004    Results Summary
Compliance Assistance
Environmental Crime Cases          2000-2004    Five-Year Trend Charts
Initiated




                                                43

                                      FY(s)
               Data                 Available      Reports/Website in Which Measure Appears
Environmental Homeland             2000-2004    Numbers-at-a-Glance
Security Cases Initiated
Facilities Resolved                2000-2004    Five-Year Trend Charts, Numbers-at-a-Glance
Final Administrative Penalty       2000-2004    Results Summary, Five-Year Trend Charts,
Orders                                          Numbers-at-a-Glance, ECHO
Gallons of Wastewater/             2000-2004    Five-Year Trend Charts, Numbers-at-a-Glance
Groundwater Treated
GPRA Goal 5 Civil Investigations   2004         Annual Performance Report3, Results Summary,
                                                Five-Year Trend Charts, Numbers-at-a-Glance
GPRA Goal 5 Complying Actions      2004         Annual Performance Report, Results Summary, ECHO
GPRA Goal 5 Criminal               2004         Annual Performance Report, Results Summary,
Investigations                                  Numbers-at-a- Glance
GPRA Goal 5 Develop and Use        2004         Annual Performance Report, Results Summary
Compliance Rates
GPRA Goal 5 Entities Reached       2004         Annual Performance Report, Results Summary,
through Compliance Assistance                   Five-Year Trend Charts, Numbers-at-a-Glance
GPRA Goal 5 EPA-Assisted           2004         Annual Performance Report, Results Summary, ECHO
Inspections
GPRA Goal 5 Facilities with        2004         Annual Performance Report, Results Summary,
Voluntary Disclosures                           Five-Year Trend Charts, Numbers-at-a-Glance
GPRA Goal 5 Federal                2004         Annual Performance Report, Results Summary,
Inspections                                     Five-Year Trend Charts, Numbers-at-a-Glance, ECHO
GPRA Goal 5 Pollutant              2004         Annual Performance Report, Results Summary, ECHO
Reductions
Incarceration                      2000-2004    Five-Year Trend Charts, Numbers-at-a-Glance
Injunctive Relief                  2000-2004    Results Summary, Five-Year Trend Charts,
                                                Numbers-at-a- Glance, ECHO
Judicial Penalties                 2000-2004    Five-Year Trend Charts, Numbers-at-a-Glance, ECHO
Pounds of Contaminated             2000-2004    Five-Year Trend Charts, Numbers-at-a-Glance
Soil/Sediment to be Cleaned Up
Pounds of Pollutants Reduced,      2000-2004    Results Summary, Five-Year Trend Charts,
Treated or Properly Managed                     Numbers-at-a-Glance
Linear Feet of Stream Mitigated    2000-2004    Five-Year Trend Charts, Numbers-at-a-Glance
Notices of Determination (NODs)    2000-2004    Five-Year Trend Charts, Number at a Glance
People Protected by SDWA           2000-2004    Five-Year Trend Charts, Numbers-at-a-Glance
Enforcement
Referrals                          2000-2004    Five-Year Trend Charts
Stipulated Penalties               2002-2004    Five-Year Trend Charts, Numbers-at-a-Glance
Superfund: % of Cost Recovery      2000-2004    Five-Year Trend Charts, Numbers-at-a-Glance
Statute of Limitation Cases
Addressed with Total Past
Greater than or Equal to
$200,000




                                                44

                                            FY(s)
                Data                      Available           Reports/Website in Which Measure Appears
Superfund: % of Remedial                 2004             Five-Year Trend Charts, Numbers-at-a-Glance
Action (RA) Starts Where
Settlement Reached or
Enforcement Taken by the Time
of the RA Start (during the FY) at
Non-Federal Superfund Sites
that Have Known Viable, Liable
Parties
Superfund: Private Party                 1995-2004        Results Summary, Five-Year Trend Charts,
Commitments ($ in millions for                            Numbers-at-a-Glance
past cost)
Superfund: PRP-financed RA               2000-2003        Results Summary, Five-Year Trend Charts,
Starts                                                    Numbers-at-a-Glance
Superfund: PRP-lead RA Starts            2000-2003        Numbers-at-a-Glance
(%)
Superfund Private Party                  1995-2004        Results Summary, Five-Year Trend Charts,
Commitments ($ in millions for                            Numbers-at-a-Glance
future response work including
cashouts)
Supplemental Environmental               2000-2004        Results Summary, Five-Year Trend Charts,
Projects (SEPs)                                           Numbers-at-a-Glance, ECHO
Statistically Valid Noncompliance        2002, 2004       2004 Combined Sewer Overflow Statistically Valid
Rates for Combined Sewer                                  Noncompliance Rate Study4
Overflows


1
 The six reports comprising OECA=s annual press release for FY 2004 are: Results Summary, Numbers-at-a-Glance,
Criminal Enforcement Highlights, Civil Enforcement Highlights, Compliance Assistance Highlights, and Five-Year
Trends. The reports are available on EPA=s Web site: http://cfpub.epa.gov/compliance/resources/reports/endofyear
2
 The Enforcement and Compliance History Online (ECHO) Web site (http://www.epa.gov/echo) provides facility-
level compliance monitoring, compliance status, enforcement action, and penalty data from 2002-2004 for facilities
regulated as Clean Air Act (CAA) stationary sources, Clean Water Act (CWA) permitted dischargers (under the
National Pollutant Discharge Elimination System, and Resource Conservation and Recovery Act (RCRA) hazardous
waste sites.
3
 The Annual Performance Reports for 1999 through 2004 are available at
http://cfpub.epa.gov/compliance/resources/reports/gpra/
4
    Available at http://www.epa.gov/compliance/resources/publications/data/planning/priorities/cwacsosvnrstudy.pdf




                                                          45

                       Table 2. Enforcement and Compliance Measures and Reports

                                             FY(s)
                   Data                     Available            Reports in Which Measure Appears
Acres of wetlands restored                  2002-2003     FY 2002 - FY 2003 National Estimates of
                                                          Environmental Benefits
Administrative Penalty Order (APO)          1991-2003     FY 1991 - FY 2003 Administrative Penalty Order
complaints by statute/program                             Complaints, FY 1999 - FY 2003 Case Initiations-
                                                          Administrative Orders
Administrative Compliance Orders by         1999-2003     FY 1999 - FY 2003 Case Initiations-Administrative
statute                                                   Orders, FY 1999 - FY 2003 Case Conclusions
Administrative penalties by statute ($)     1974-2003     1974 - FY 2003 Enforcement Penalties, FY 1999 -
                                                          FY 2003 Administrative and Civil Judicial Penalties,
                                                          FY 1999 - FY 2003 Penalties
Cases against facilities initiated as a     1999-2003     FY 1999 - FY 2003 Voluntary Disclosure Policy
result of voluntary disclosure under
audit policy
Cases against companies initiated as        1999-2003     FY 1999 - FY 2003 Voluntary Disclosure Policy
a result of voluntary disclosure under
audit policy
Cases with SEPs by statute                  1999-2003     FY 1999 - FY 2003 Supplemental Environmental
                                                          Projects (SEPs)
Citizen complaint responses by              2003          FY 2003 Citizen Complaints
program area
Citizen complaints received by              2003          FY 2003 Citizen Complaints
program area
Civil investigations by national priority   2002-2003     FY 2002 - FY 2003 Civil Investigations
and non-priority program area
Civil judicial settlements by statute       1999-2003     FY 1999 - FY 2003 Case Conclusions
Civil judicial referrals                    1973-2003     FY 1973 - FY 2003 Civil Judicial Referrals and
                                                          Penalties, FY 1999 - FY 2003 Case Initiations-Civil
                                                          Judicial Referrals
Civil judicial penalties ($)                1973-2003     FY 1973 - FY 2003 Civil Judicial Referrals and
                                                          Penalties, FY 1974 - FY 2003 Enforcement
                                                          Penalties, FY 1999 - FY 2003 Administrative and
                                                          Civil Judicial Penalties, FY 1999 - FY 2003
                                                          Penalties
Criminal referrals                          1983-2003     FY 1983 - FY 2003 Criminal Referrals and
                                                          Penalties, FY 1998 - FY 2003 Criminal Enforcement
                                                          Program Activities
Criminal defendants charged                 1998-2003     FY 1998 - FY 2003 Criminal Enforcement Program
                                                          Activities
Criminal cases initiated                    1998-2003     FY 1998 - FY 2003 Criminal Enforcement Program
                                                          Activities
Criminal penalties ($)                      1974-2003     1974 - FY 2003 Enforcement Penalties, FY 1983 -
                                                          FY 2003 Criminal Referrals and Penalties, FY 1999
                                                          - FY 2003 Penalties



                                                        46 

                                          FY(s)
                  Data                   Available           Reports in Which Measure Appears
Expedited penalty order complaints       2003          FY 2003 Expedited Administrative Penalty Orders
by program area
Expedited penalty order settlements      2003          FY 2003 Expedited Administrative Penalty Orders
by program area
Federal inspections and evaluations      1999-2003     FY 1999 - FY 2003 Federal Inspections and
by program                                             Evaluations
Federal inspections and evaluations      1994-2003     FY 1994 - FY 2003 Federal Inspections and
by statute                                             Evaluations
Final Administrative Penalty Orders      1999-2003     FY 1999 - FY 2003 Case Conclusions
by statute
Gallons of wastewater/ground water       2002-2003     FY 2002 - FY 2003 National Estimates of
treated                                                Environmental Benefits
Incarceration (years)                    1998-2003     FY 1998 - FY 2003 Criminal Enforcement Program
                                                       Activities
Injunctive relief by case type ($)       1999-2003     FY 1999 - FY 2003 Injunctive Relief
Injunctive relief by statute ($)         1999-2003     FY 1999 - FY 2003 Injunctive Relief
Notices of Determination as a result     1999-2003     FY 1999 - FY 2003 Voluntary Disclosure Policy
of voluntary disclosure under audit
policy
People protected by Safe Drinking        2002-2003     FY 2002 - FY 2003 National Estimates of
Water Act (SDWA) enforcement                           Environmental Benefits
Pounds of pollution reduced, treated,    2002-2003     FY 2002 - FY 2003 National Estimates of
or properly managed                                    Environmental Benefits
Pounds of contaminated                   2002-2003     FY 2002 - FY 2003 National Estimates of
soil/sediment                                          Environmental Benefits
Resolved cases against companies         1999-2003     FY 1999 - FY 2003 Voluntary Disclosure Policy
as a result of voluntary disclosure
under audit policy
Resolved cases against facilities as a   1999-2003     FY 1999 - FY 2003 Voluntary Disclosure Policy
result of voluntary disclosure under
audit policy
Settlements with/without complying       2003          FY 2003 Complying Actions
actions by region
Statistically-valid noncompliance        2004-2005     Statistically-Valid Noncompliance Rates for RCRA
rates for RCRA inspections of                          Inspections of Foundries
foundries
Supplemental Environmental Projects      1999-2003     FY 1999 - FY 2003 Supplemental Environmental
by statute ($)                                         Projects (SEPs)
Total penalties by case type ($)         1999-2003     FY 1999 - FY 2003 Penalties

These reports will be posted to EPA=s Web site at http://www.epa.gov/compliance/data/results/index.html




                                                     47

                                                                               Appendix G

                                    Distribution

Office of the Administrator
Assistant Administrator for Enforcement and Compliance Assurance
Principal Deputy Assistant Administrator for Enforcement and Compliance Assurance
Director, Office of Compliance, Office of Enforcement and Compliance Assurance
Director, Office of Civil Enforcement, Office of Enforcement and Compliance Assurance
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Followup Coordinator, Office of Enforcement and Compliance Assurance
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Inspector General




                                             48 

